                

                
                     U.S. ENVIRONMENTAL PROTECTION AGENCY 
                
                     OFFICE OF INSPECTOR GENERAL 
                

                

                



                     Better Planning, Execution
                     and Communication Could
                     Have Reduced the Delays in
                     Completing a Toxicity
                     Assessment of the Libby,
                     Montana, Superfund Site

                     Report No. 13-P-0221                    April 17, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                Benjamin Beeson
                                                    Ming D. Chang
                                                    Dwayne E. Crawford
                                                    Bram Hass
                                                    Eric Lewis
                                                    Ryan Patterson
                                                    Rodney Rice
                                                    Johnny Ross
Abbreviations
ATSDR 	          Agency for Toxic Substances and Disease Registry
CERCLA 	         Comprehensive Environmental Response, Compensation, and Liability Act
                (Superfund)
EPA 	           U.S. Environmental Protection Agency
FAR 	            Federal Acquisition Regulations
FY     	        Fiscal Year
IRIS 	           Integrated Risk Information System
IUR 	            Inhalation Unit Risk
LAA 	            Libby Amphibole Asbestos
LAP 	           Libby Action Plan
LATAG           	Libby Area Technical Assistance Group
NCEA 	           National Center for Environmental Assessment
NHEERL	          National Health Effects and Environmental Research Laboratory
NIOSH 	          National Institute for Occupational Safety and Health
NTP 	           National Toxicology Program
OARM	            Office of Administration and Resources Management
OIG 	            Office of Inspector General
ORD 	            Office of Research and Development
OSWER 	          Office of Solid Waste and Emergency Response
PCM 	            Phased Contract Microscopy
RfC 	            Reference Concentration
SAB 	            Science Advisory Board
SOW 	            Statement of Work
USGS 	           U.S. Geological Survey

Cover photo:	     Exterior removal of contaminated soil from a residential area in
                  Libby, Montana. (EPA photo)


  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:     OIG_Hotline@epa.gov                        write:   EPA Inspector General Hotline
  phone:     1-888-546-8740                                      1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                        Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                  Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                               13-P-0221
                                                                                                          April 17, 2013
                        Office of Inspector General


                        At a Glance
Why We Did This Review               Better Planning, Execution and Communication Could
We performed fieldwork to            Have Reduced the Delays in Completing a Toxicity
determine why the EPA did not        Assessment of the Libby, Montana, Superfund Site
meet planned corrective-action
milestones for completing a           What We Found
comprehensive toxicity
assessment of asbestos               U.S. Environmental Protection Agency (EPA) action officials did not complete
necessary to determine the           planned corrective actions under its Libby Action Plan in a timely manner. This
cleanup level for the Libby,         occurred because the scope of the work was larger than originally thought;
Montana, Superfund site. We          there was no established charter; and there were contracting delays,
also determined whether EPA          competing priorities, unanticipated work, and poor communication with
informed appropriate officials       stakeholders. Consequently, the Agency has twice revised its estimates for
about the delays in a timely         completing actions in response to our December 2006 report.
manner. In 1999, EPA began
investigating local concerns         The toxicity assessment is one of two components (an exposure assessment
about asbestos contamination in      being the other) that makes up the health risk assessment for determining
Libby. EPA designated the Libby      cleanup levels in Libby. In December 2011, EPA informed us that the health
site a national priority in the      risk assessment would be substantially delayed. As a result, the Agency’s final
Superfund program in 2002; and       determinations that the completed and ongoing cleanup actions are sufficient to
in December 2006, the EPA OIG        address the health risks from site contamination have been delayed from 2 to 6
recommended that the EPA             years, depending on the studies being performed. This is a significant concern,
perform a comprehensive toxicity     considering that the EPA Administrator declared a public-health emergency at
assessment of amphibole              the Libby site in 2009 and the Agency has spent over $400 million on cleanup.
asbestos to determine the safe       Communications about delays in completing Libby Action Plan items, and the
level for human exposure. EPA        reasons for those delays, were not always timely or clearly communicated to
submitted its Libby Action Plan in   stakeholders; and EPA officials failed to update the Agency’s follow-up system
2007 to address the OIG              or notify the Office of Inspector General (OIG) about known delays until
recommendations. In June 2009,       planned corrective actions under the Libby Action Plan could not be met.
the EPA Administrator declared a     Planned
                                          Agency Corrective Actions
public-health emergency in Libby      Recommendations
due to the number of deaths and
illnesses reported in the town.      We recommend that EPA: (1) require action officials to disclose risks to
                                     completing corrective-action plans, and update and distribute original and
This report addresses the            revised plans to stakeholders; (2) establish a charter to define project roles and
following EPA Goal or                responsibilities for completing remaining corrective actions under the Libby
Cross-Cutting Strategy:              Action Plan, and determine whether the Science Advisory Board (SAB) or
                                     another organization will review the completed risk assessment; (3) direct the
 	 Cleaning up communities          SAB to determine whether EPA has followed guidance sufficiently to support
    and advancing sustainable        the findings in the toxicity assessment, and whether other possible limitations
    development.                     exist when applying cancer and noncancer values to determine acceptable
                                     levels of exposure to asbestos in Libby; (4) ensure that future contracts issued
                                     through interagency agreements are within the scope of those agreements;
For further information, contact
our Office of Congressional and      and (5) develop a priority list for pending and ongoing research work.
Public Affairs at (202) 566-2391.
                                     The Agency agreed with part of one recommendation and disagreed with other
The full report is at:               recommendations. The recommendations are unresolved, pending estimated
www.epa.gov/oig/reports/2013/        completion dates or an action plan for the agreed-to recommendation, and
20130417-13-P-0221.pdf               dispute-resolution actions for recommendations with no agreement.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                              THE INSPECTOR GENERAL




                                         April 17, 2013


MEMORANDUM


SUBJECT:	 Better Planning, Execution and Communication Could Have Reduced the Delays
          in Completing a Toxicity Assessment of the Libby, Montana, Superfund Site
          Report No. 13-P-0221


FROM:         Arthur A. Elkins Jr.


TO:    	      See Below


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the EPA position. This
report contains part of a recommendation that the Agency agreed with, but the Agency did not
provide estimated completion dates or an action plan. Therefore, this recommendation is
unresolved. The report also contains recommendations where the Agency and OIG disagreed.
These recommendations are also considered unresolved.

Action Required

In accordance with EPA Manual 2750, resolution should begin immediately upon issuance of the
report. We are requesting a meeting of action officials from the Office of Solid Waste and
Emergency Response, the Office of Research and Development, EPA Region 8, and the
Assistant Inspector General for the Office of Program Evaluation, to start the resolution process
and attempt to obtain resolution. If resolution is still not reached within 30 days, these action
officials are required to complete and submit a dispute-resolution request to the Chief Financial
Officer to continue the resolution process.

Please email your response to Carolyn Copper at copper.carolyn@epa.gov. The final response
should not contain data that you do not want to be released to the public. If your response
contains such data, you should identify the data for redaction or removal. We have no objections
to the further release of this report to the public. We will post this report to our website at
http://www.epa.gov/oig.

Should you have any questions, please contact Carolyn Copper, Assistant Inspector General for
Program Evaluation, at (202) 566-0829 or copper.carolyn@epa.gov; or Eric Lewis, Director,
Special Reviews, at (202) 566-2664 or lewis.eric@epa.gov.


Addressees:
Bob Perciasepe, Deputy Administrator
Mathy Stanislaus, Assistant Administrator, Office of Solid Waste and Emergency Response
Lek Kadeli, Acting Assistant Administrator, Office of Research and Development
Howard Cantor, Acting Regional Administrator, Region 8
Better Planning, Execution and Communication                                                                                 13-P-0221
Could Have Reduced the Delays in Completing a
Toxicity Assessment of the Libby, Montana, Superfund Site


                                   Table of Contents 


Chapters
   1	   Introduction ........................................................................................................       1


                 Purpose .......................................................................................................    1     

                 Background .................................................................................................       1     

                 Scope and Methodology ..............................................................................               4     


   2	   Improved Management Controls Needed to Ensure 

        Completion of Corrective Actions Under the Libby Action Plan ...................                                            6


                 Original Project Milestones Were Overly Ambitious ....................................                             7

                 No Charter Established ...............................................................................             9     

                 Contracting Issues Delayed Noncancer Assessment..................................                                  9

                 Risk and Toxicity Assessment Guidance and Reviews ...............................                                 11 

                 Competing Priorities and Unanticipated Work
                    Delayed Cancer Assessment .................................................................                    12 

                 Communication of Plan Execution Could Be Improved ...............................                                 13 

                 Other Issues ................................................................................................     15         

                 Conclusion...................................................................................................     17         

                 Recommendations ......................................................................................            17         

                 Agency Response to Draft Report and OIG Evaluation .............................                                  18 

                 Developments Since Issuing Our Draft Report............................................                           19 


   Status of Recommendations and Potential Monetary Benefits..............................                                         22




Appendices
   A	   Name and Ranking of Studies Under the Agency’s 

        Libby Action Plan ...............................................................................................          23 


   B	    Risk Assessment Guidance ..............................................................................                   24 


   C	    Toxicity Assessment Guidance ........................................................................                     25 


   D	    OIG Consolidated Responses to Agency’s 

         Comments on Libby Draft Report.....................................................................                       28 


   E	    Distribution .........................................................................................................    45 

                                  Chapter 1

                                   Introduction
Purpose
            The U.S. Environmental Protection Agency (EPA), Office of Inspector
            General (OIG), conducted this review as a follow-up to EPA OIG Report
            No. 2007-P-00002, EPA Needs to Plan and Complete a Toxicity Assessment for
            the Libby Asbestos Cleanup, December 5, 2006. Our objectives were to:

               	 Conclude why the Agency did not meet planned corrective-action
                  milestones in response to the recommendations in the OIG’s
                  December 2006 report.

               	 Determine whether appropriate Agency officials were properly
                  informed of the breaches in these milestones for the purpose of updating
                  stakeholders (e.g., Congress; OIG; residents of Libby, Montana) in a
                  timely manner.

Background

            The town of Libby is located in the northwest corner of Montana. EPA has been
            working in Libby since 1999, when the Agency sent an emergency-response team
            to investigate local concerns and news articles about asbestos-contaminated
            vermiculite. In January 2000, due to citizen concerns, EPA started sampling and
            analyzing lawn and garden products from Libby, which contained vermiculite.
            In 2002, EPA began an emergency-response cleanup of Libby residential and
            commercial properties, and that same year the Libby site was added to the
            National Priorities List of Superfund sites. In June 2009, the EPA Administrator
            declared a public-health emergency at the Libby site due to the number of deaths
            and illnesses reported in the town.

            The OIG’s 2006 Report

            We conducted our 2006 review in response to inquiries received from the two
            U.S. senators from Montana, who requested information regarding cleanup
            activities of asbestos material in Libby, Montana. Our December 2006 report
            identified two significant issues critical to a successful cleanup in Libby. First,
            EPA had not completed a toxicity assessment of amphibole asbestos to determine
            the safe level for human exposure. Therefore, EPA could not be sure that the
            Libby cleanup sufficiently reduced the risk that humans may become ill or, if ill
            already, get worse. Second, EPA’s public-information documents Living with
            Vermiculite and Asbestos in Your Home were inconsistent about safety concerns.


13-P-0221                                                                                     1
                The OIG report included two recommendations to the Assistant Administrator for
                the Office of Solid Waste and Emergency Response (OSWER) and the Regional
                Administrator for EPA Region 8:

                     1.	 Fund and execute a comprehensive amphibole asbestos toxicity assessment
                         to determine (1) the effectiveness of the Libby removal actions, and (2)
                         whether more actions are necessary. The toxicity assessment should include
                         the effects of asbestos exposure on children. The EPA Science Advisory
                         Board (SAB) should review the toxicity assessment and report to the Office
                         of the Administrator and the Libby Community Advisory Group whether
                         the proposed toxicity assessment can sufficiently protect human health.

                     2.	 Review and correct any statements that cannot be supported in any
                         documentation mailed or made available to Libby residents regarding the
                         safety of living with or handling asbestos, until EPA confirms those facts
                         through a toxicity assessment.

                Agency Response to the OIG’s 2006 Report

                By removing inconsistent documentation or communications provided to Libby
                residents, the Agency satisfied recommendation 2 prior to issuance of the
                December 2006 report.

                To satisfy OIG recommendation 1, a meeting was held in January 2007 with EPA
                and other federal scientists from the Agency for Toxic Substances and Disease
                Registry (ATSDR) and the National Toxicology Program (NTP), to identify data
                gaps that needed to be addressed to complete a toxicity assessment of the mixture
                of fibrous amphibole minerals found in Libby (Libby amphibole). The group
                developed a list of 12 studies needed to complete this assessment. These studies
                are collectively referred to as the Libby Action Plan.

                In April 2007, OSWER and EPA Region 8 provided the OIG with their specific
                corrective actions under the Libby Action Plan. They committed to completing
                the EPA Office of Research and Development’s (ORD’s) National Health Effects
                and Environmental Research Laboratory (NHEERL) animal toxicity studies by
                September 30, 2009; and to completing a baseline risk assessment, including a
                comprehensive toxicity assessment, by September 30, 2010.

                To carry out the list of 12 studies developed during the meeting held in
                January 2007, a steering committee1 was established to develop a draft action
                plan. The toxicity assessment, coupled with an exposure assessment, would
                comprise the baseline risk assessment needed to support the Record of Decision
                for the Libby site. Our review did not address the Agency’s efforts related to


1
 Members of this steering committee included representatives from NHEERL, the National Center for
Environmental Assessment (NCEA), OSWER, and EPA Region 8.

13-P-0221                                                                                             2
            completing the exposure assessment, because this assessment did not fall under
            the scope of our review.

            Libby Action Plan Studies, Responsibilities, and Milestones

            Appendix A lists 12 studies that constitute the Libby Action Plan, the responsible
            parties for conducting these studies, and the estimated milestone dates for their
            completion. This appendix lists these studies in the order to be performed and
            their relative priority for completing the Libby toxicity assessment. This order
            was established by EPA and other federal scientists in January 2007.

            Responsibility for carrying out the studies under the Libby Action Plan were
            given to EPA’s OSWER, ORD, and Region 8, with assistance to be provided by
            the U.S. Geological Survey (USGS), the National Institute for Occupational
            Safety and Health (NIOSH), and ATSDR. The Agency’s April 2007 Libby Action
            Plan called for all planned studies to be completed by the fourth quarter of fiscal
            year (FY) 2009.

               OSWER

               OSWER’s responsibilities involved developing the methodology for
               estimating the risk of lung cancer and mesothelioma from inhalation exposure
               to different forms of asbestos. OSWER was also responsible for oversight of
               the Libby Action Plan and reporting progress made to internal and external
               stakeholders, including:

                      Senior Agency officials (EPA Administrator, Assistant Administrators
                       for OSWER and ORD, and Region 8 Regional Administrator)
                      OIG
                      Congressional staff of Montana’s U.S. senators
                      Libby residents

               ORD

               ORD/NCEA was responsible for conducting a cancer assessment specifically
               for Libby amphibole for the Integrated Risk Information System (IRIS).
               Responsibilities of the ORD/NHEERL included developing a dosimetry
               model and simulation studies, conducting in vitro dissolution assays,
               evaluating in vitro toxicity endpoints, conducting comparative toxicology in
               mice and rats, and conducting inhalation toxicology studies in rats.

               Region 8

               EPA Region 8, with assistance from ORD/NCEA, was responsible for
               developing the site-specific reference concentration (RfC) for the Libby
               amphibole asbestos. The RfC applies to noncancer health effects and is the

13-P-0221                                                                                     3
                      concentration of a substance that is likely to be without an appreciable risk of
                      adverse health effects over a lifetime. Region 8 was also one of the
                      organizations—along with ORD/NCEA, NIOSH, and ATSDR—responsible
                      for developing epidemiological information from cohorts exposed to Libby
                      amphibole. The cohort used to develop the RfC was the Marysville, Ohio,
                      cohort. Workers in that cohort were exposed to the Libby amphibole. The
                      region was also responsible for verifying fiber-size distribution of Libby
                      amphibole and assisting ORD/NCEA, NIOSH, and ATSDR with developing
                      epidemiologic information from other cohorts exposed to Libby amphibole.

Scope and Methodology
                      We conducted our review from December 2010 through July 2012. Our
                      review was conducted in accordance with generally accepted government
                      auditing standards. Those standards require that we plan and perform the
                      review to provide a reasonable basis for its findings and conclusions. We
                      believe that the evidence obtained provides a reasonable basis for our findings
                      and conclusions based on our review objectives. To complete our work we:

                      	 Interviewed appropriate EPA personnel from OSWER, ORD/NCEA, the
                         Office of Administration and Resources Management (OARM), and
                         Region 8, who were involved with oversight and coordination of the
                         Agency’s efforts under its Libby Action Plan.

                      	 Held briefings with senior managers from OSWER, ORD, SAB, and EPA
                         Region 8.

                      	 Interviewed U.S. Department of Transportation/Volpe Center2 personnel
                         involved with the contract award to the University of Cincinnati for Libby
                         noncancer studies.

                      	 Evaluated work performed by other government agencies assisting EPA
                         with the completion of tasks under its Libby Action Plan. These agencies
                         included the USGS, ATSDR, and the Volpe Center.

                      	 Obtained and reviewed the following documents to determine the
                         Agency’s timeliness in meeting Libby Action Plan project milestones:

                              o	 Examples of monthly progress reports prepared by EPA and
                                 submitted to the congressional staff of U.S. senators from
                                 Montana.


2
  The center is part of the U.S. Department of Transportation’s Research and Innovative Technology Administration
and is an innovative, federal, fee-for-service organization. Its mission is to improve the nation’s transportation
system. The center performs work for the U.S. Department of Transportation, as well as for other federal, state,
local, and international agencies and entities.

13-P-0221                                                                                                        4
            o	 Annual progress reports on accomplishments under the Libby
               Action Plan to determine whether the Agency was adequately
               managing activities in order to meet established milestones.

            o	 Peer-reviewer comments rendered about studies under the
               Agency’s Libby Action Plan to determine whether any concerns
               were noted regarding the Agency’s ability to complete study
               milestones in a timely manner.

            o	 Funding and budget information for implementing the 2007 Libby
               Action Plan to determine whether there were any funding issues
               that may have impeded progress under the plan.

            o	 Contract award documents issued via interagency agreement for
               studies related to the Marysville, Ohio, cohort and maintained by
               OARM.




13-P-0221                                                                          5
                                  Chapter 2

             Improved Management Controls 

        Needed to Ensure Completion of Corrective 

           Actions Under the Libby Action Plan 

            EPA action officials did not complete planned corrective actions under its Libby
            Action Plan in a timely manner. This occurred because:

                  EPA did not develop a charter that would have established a single
                   authority responsible for completing the milestones.
                  EPA took almost 2 years to issue a sole-source contract to support the
                   noncancer study.
                  EPA had other priorities that delayed completion of the cancer study.
                  EPA encountered unforeseen problems preparing dosing material for
                   animal studies; delays in government contracting; and revisions to
                   experimental designs, which have prevented the completion of the
                   remaining studies until 2015.

            Agency action officials are ultimately responsible for establishing reasonable
            timeframes for completing corrective actions, and for ensuring that corrective
            actions are implemented. However, action officials in OSWER and Region 8 did
            not ensure that corrective actions under their Libby Action Plan were monitored
            and completed in accordance with initially planned milestones. As a result, the
            Agency’s efforts to complete Libby Action Plan studies in support of a
            comprehensive amphibole asbestos toxicity assessment have been delayed
            2 years for key cancer and noncancer studies, and 6 years for all other studies.
            This is a significant concern considering that the EPA Administrator declared a
            public-health emergency at the Libby site in 2009, and the Agency has spent over
            $400 million of the funds obtained from the responsible party.

            In addition, outside of OSWER, ORD and Region 8, no one was informed of the
            reasons for the delays. EPA officials failed to update the Agency’s follow-up
            system or notify the Office of Inspector General (OIG) about known delays until
            planned corrective actions under the Libby Action Plan could not be met.




13-P-0221                                                                                      6
Original Project Milestones Were Overly Ambitious
            EPA’s Libby Action Plan called for all studies to be completed by the fourth
            quarter of FY 2009. This included all individual project plans, peer reviews,
            contract awards, and the completion of all tasks involving cancer and noncancer
            assessments and animal studies. We found that the milestones established for
            accomplishing these studies were ambitious, and there was a high risk of the
            milestones not being completed on time. Consequently, since establishing
            corrective actions under its April 2007 follow-up response, EPA has twice
            revised these milestones.

            Overly Ambitious Timetable

            The original Libby Action Plan had an overly ambitious timetable and required
            coordination and oversight to meet that timetable. In addition, there was intense
            stakeholder interest. From the beginning, it appears that there was not sufficient
            time built into the timetable to complete the individual tasks that comprised the
            plan. OSWER and Region 8 managers told us that the Agency had significantly
            underestimated the magnitude of effort that would be needed to achieve the
            agreed-to corrective action. The Region 8 Libby on-scene coordinator, who
            attended the Agency’s planning meeting held in January 2007, stated that the
            Libby Action Plan was “doomed to fail from the start,” with respect to meeting
            the original project milestones because:

               	 EPA was trying to be responsive to external pressure when the Libby
                  Action Plan was first put together; and
               	 EPA officials from OSWER and Region 8 had made promises to Montana
                  politicians and to the residents of Libby to come up with a baseline risk
                  assessment. This promise included a comprehensive toxicity assessment to
                  support a Record of Decision for ongoing cleanup activities at the Libby
                  Superfund site. EPA staff involved with developing the Libby Action Plan
                  tried to deliver on those promises.

            OSWER managers stated that:

                  OSWER had never executed such a complex research project.
                  The initial milestone dates had to be extended due to the depth and breadth
                   of the studies that had to be performed.
                   Preparation of the Libby amphibole test material was essentially a
                   research project in itself, and was needed to provide a consistent dosing to
                   animals in terms of both the quantity of Libby amphibole and the character
                   of fibers provided.

            Concerns over projected milestone dates were also noted during the initial peer
            review of planned animal toxicity studies to be performed under the Libby Action
            Plan. Proposed methods for conducting these animal toxicity studies were peer

13-P-0221                                                                                        7
                 reviewed externally in May 2007 by experts from academia, ATSDR, the
                 National Institute of Environmental Health Sciences, and the Libby Area
                 Technical Assistance Group (LATAG).3 Peer reviewers stated that some animal
                 studies were overly ambitious and perhaps unattainable within the proposed time
                 frames.

                 Milestone Revisions

                 EPA revised its estimated milestones on two separate occasions after providing
                 the OIG its first plan in April 2007. In its April 2007 response, EPA estimated:

                         The completion of a baseline risk assessment, including a comprehensive
                          toxicity assessment by September 30, 2010.
                         The completion of NHEERL animal toxicity studies by
                          September 30, 2009.

                 However, in October 2009, OSWER informed the OIG that the estimated date
                 for completing the comprehensive toxicity assessment was revised from
                 September 30, 2010, to September 30, 2012; and from September 30, 2009, to
                 September 2015 for the NHEERL animal toxicity studies. At the time, OSWER
                 cited the following reasons for the delays:

                         Substantial analytical and statistical complexities associated with exposure
                          limits characterization using new activity-based sampling techniques.
                         Contracting delays for additional epidemiological work related to the
                          Marysville, Ohio, cohort that supports the development of the RfC for
                          Libby amphibole.
                         Unforeseen problems in preparing the dosing material for animal studies.
                         Delays in government contracting.
                         Revisions to experimental designs.

                 EPA provided its second estimates in December 2011 when the Assistant
                 Administrator for OSWER informed the OIG that the milestone date for the
                 completion of the health risk assessment would likely be delayed beyond the
                 September 30, 2012, date. The Assistant Administrator stated that the health risk
                 assessment relies upon two components: (1) a toxicological assessment of Libby
                 amphibole asbestos led by ORD and EPA Region 8, and (2) a site-specific
                 exposure assessment by EPA Region 8. According to the Assistant Administrator,
                 neither component was complete and both would entail significant effort in 2012.
                 The Assistant Administrator stated the schedules for completion remain highly
                 uncertain for both components.




3
 The focus of the LATAG is to make certain that the cleanup of Libby amphibole contamination is comprehensive,
complete, and timely, resulting in the elimination of the Libby amphibole threat to human health and environment.

13-P-0221                                                                                                       8
No Charter Established
            The accomplishment of the Agency’s Libby Action Plan required a collaborative
            effort. The Agency chose to use a group comprised of the Assistant
            Administrators for OSWER and ORD, and the Regional Administrator for EPA
            Region 8 to manage the project. EPA considered developing a charter but decided
            against it. The project charter could have addressed the purpose, measurable
            objectives, a high-level description of what is to be done, risks, summary
            milestones, initial budgets, approvals required, and project manager authority and
            responsibility.

            OSWER, ORD, and Region 8 oversaw initial efforts under the Libby Action Plan,
            discussed cross-coordination efforts within EPA, and approved funding.
            However, each member was only responsible for the Libby Action Plan studies
            assigned to them (see appendix A). No office had authority over the level of staff
            participation from other EPA program offices. This management approach did not
            have a single figure who had the authority to ensure project milestones were being
            met, or who had the ability to delineate responsibilities, oversee funding, and
            ensure proper channels of communications.

Contracting Issues Delayed Noncancer Assessment
            The RfC Development study was ranked number one by the Agency for its
            importance in completing the Libby toxicity assessment. EPA Region 8, with
            assistance from ORD/NCEA, was responsible for carrying out the RfC
            Development study. This study would develop a site-specific noncancer toxicity
            value for Libby amphibole from the Marysville, Ohio, cohort. According to the
            Agency’s Libby Action Plan, all contracts were to be drafted by the third quarter
            of FY 2007, or no later than June 2007. However, the sole-source contract for the
            RfC Development study was not awarded until May 2009. Consequently, it took
            almost 2 years from the time the sole-source contract should have been drafted
            and when it was actually awarded.

            Contract Award

            The University of Cincinnati completed studies on the effects of Libby asbestos
            on the Marysville, Ohio, workers in 1984. Because the university owned this data,
            EPA Region 8 wanted to contract with the university to update, compile, and
            provide the Marysville, Ohio, cohort data in a format that could be used for
            developing the RfC in support of the Libby toxicity assessment.

            Instead of using the Agency’s contracting resources, Region 8 used an existing
            interagency agreement with the U.S. Department of Transportation Volpe Center
            to award the sole-source contract to the University of Cincinnati. However, we
            believe that Region 8’s use of the Libby cleanup interagency agreement to award
            a contract to the University of Cincinnati exceeded the scope of work under the

13-P-0221                                                                                     9
            agreement between Region 8 and the Volpe Center. Region 8’s interagency
            agreement with the Volpe Center is site specific and the scope of work describes
            authority for work to be done at Libby, Montana, and not at the University of
            Cincinnati. The Region 8 Libby on-scene coordinator who made this decision
            stated that the Volpe Center had assisted Region 8 with cleanup efforts at the
            Libby asbestos site since 1999; and, at the time, he considered them better, faster,
            and more innovative at contracting than EPA.

            In a May 2009, Libby Action Plan meeting, EPA cited getting the sole-source
            contract in place with the University of Cincinnati as a reason for the delay under
            the RfC Development study. Managers with OSWER’s Office of Superfund
            Remediation and Technology Innovation also attributed the delay to the time it
            took the Volpe Center to award the sole-source contract.

            However, Volpe Center personnel stated that EPA did not readily know what the
            Agency wanted in the contract with the University of Cincinnati. According to
            Volpe Center personnel, the contract was originally estimated at $2.1 million and
            included seven tasks. However, EPA could not decide whether all seven tasks
            would be done by the university. When the contract was awarded, Region 8
            decided that only two tasks would be completed at a cost of $410,000. Volpe
            Center personnel described the following timeline for awarding the contract to
            the University of Cincinnati:

                   Initial technical discussions began between EPA Region 8 and Volpe
                    Center technical staff in November 2007.
                   EPA provided a draft statement of work (SOW) to Volpe Center technical
                    staff around the December 2007/January 2008 timeframe.
               	   Between January 2008 and April 2008, Volpe Center technical staff and
                    EPA worked cooperatively on refining the SOW, and in April 2008 the
                    SOW was finalized.
               	   The Volpe Center’s Acquisition Division received the purchase request
                    package, including the finalized SOW, in April 2008.
               	   Once in the Acquisition Division, Acquisition staff, along with advice
                    from the legal advisor, worked on the justification required to support a
                    sole-source procurement.
               	   The justification for a sole-source procurement was approved on
                    July 22, 2008. The solicitation was drafted, finalized, and issued on
                    October 29, 2008.
               	   The contract was awarded to the University of Cincinnati on May 4, 2009.

            We asked Volpe Center personnel how they kept the Agency informed about the
            progress for awarding the contract, and whether there were any problems with
            meeting deliverables. We were told that there were monthly meetings with the
            University of Cincinnati, technical staff of the Volpe Center, and EPA Region 8.
            Volpe Center personnel stated the milestones for deliverables were agreed to by
            EPA Region 8 and the University of Cincinnati at the kick-off in May 2009.


13-P-0221                                                                                     10
            Volpe Center personnel could only recall one deliverable that needed to be
            adjusted due to the volume of data encountered. In this instance, Volpe indicated
            that EPA was informed and agreed to extend the deliverable schedule. Volpe
            Center personnel said the final deliverable for tasks 1 and 2 were delivered to the
            Agency in August 2010. These deliverables were used by EPA to develop an
            exposure-response relationship RfC report for peer review.

            Although the Region 8 on-scene coordinator claimed that the use of the Volpe
            Center services through the interagency agreement would provide better, faster,
            and more innovative contracting, this did not occur. Rather, the process took more
            time than planned, and the EPA and the Volpe Center blamed each
            other for the delays.

Risk and Toxicity Assessment Guidance and Reviews
            The Agency’s April 2007 response stated that it would complete a baseline risk
            assessment, including a comprehensive toxicity assessment, in response to
            recommendation 1 in our December 2006 report. This recommendation also
            required EPA’s SAB to review the Libby toxicity assessment. Since the final
            site-specific assessments have not been developed, EPA will, at a minimum,
            develop the risk assessment based on guidance listed in appendix B. EPA
            developed the draft IRIS Toxicological Review of Libby Amphibole Asbestos in
            support of a toxicity assessment based on the 14 guidance documents found
            in appendix C.

            We requested that the former SAB director, who put together a panel to review
            EPA’s work, provide the SAB’s perspective on the quality of the toxicity
            assessment. The former director stated that:

               	 The SAB has not been charged to review the risk assessment when it is
                  completed.
               	 The SAB has received charge questions from EPA to guide the focus of
                  the review of the draft IRIS Toxicological Review of Libby Amphibole
                  Asbestos. However, the SAB director stated that the SAB review will go
                  beyond the charge questions as they deem appropriate.
               	 The SAB looks for the best experts with no conflicts of interests to
                  provide different scientific perspectives on a particular review.
                  Additionally, all reviewers of the draft IRIS Toxicological Review of Libby
                  Amphibole Asbestos document are from outside of EPA.
               	 The SAB panel supports the selection of the Marysville, Ohio, cohort for
                  the noncancer assessment, although uncertainties exist with the small size
                  of the cohort to accurately represent the general population. However,
                  with regard to the Marysville cohort, the SAB has asked EPA to conduct
                  additional analyses, which include chest X-ray abnormalities other than
                  localized pleural thickening. In addition, the SAB has asked EPA to do


13-P-0221                                                                                     11
                         analyses on more recent published cohorts (e.g., Minneapolis). This would
                         provide more scientific support for the calculated RfC.
                       The RfC risk is stated in terms of phased contract microscopy (PCM).4
                       For years the SAB has asked the Agency to be more transparent in
                         describing the rationale for choosing or excluding studies (i.e., selection
                         criteria) and the choice of statistical models that support the dose-response
                         assessment for cancer and noncancer health endpoints.
                      	 External reviewers should have all available information at their disposal
                         at the beginning of the review; this is necessary to verify the results of the
                         EPA analysis. However, EPA only provides the information upon request.

                 The Libby Action Plan states that the baseline risk assessment would include the
                 toxicity assessment. However, while the toxicity assessment will be reviewed by
                 the SAB, the overall risk assessment will not. EPA should determine whether the
                 SAB or another organization should review the risk assessment. That review
                 should be an assessment of the risk involved with not completing all the required
                 studies of the Libby Action Plan. EPA and the SAB should resolve issues relating
                 to developing specific guidance on study selection and dose-response model
                 selection to improve the toxicity assessment process. We also agree with the SAB
                 that external reviewers should receive all available documentation at the start of
                 their review. This will avoid delays and make the Agency’s work transparent.

Competing Priorities and Unanticipated Work
Delayed Cancer Assessment

                 The Libby Amphibole Cancer Assessment study5 was conducted by EPA’s
                 ORD/NCEA. According to milestones stated in the Libby Action Plan, this study
                 was supposed to be completed by the fourth quarter of FY 2009. Completion of
                 this study was ranked second in terms of importance by the Agency for
                 completing the Libby toxicity assessment. Although this study is now complete, it
                 was delayed due to ORD/NCEA competing priorities and to unanticipated work
                 that ORD/NCEA personnel realized was needed.

                 Competing Priorities

                 ORD/NCEA senior managers stated that:

                      	 Determining a cancer value for Libby asbestos was not their only
                         ongoing work priority at the time. ORD usually listed Libby asbestos,
                         perchloroethylene, and formaldehyde as the top three priority assessments.

4
  The current IRIS value for asbestos states that unit risk is based on fiber counts made by PCM and should not be
applied directly to measurements made by other analytical techniques. Many environmental monitoring
measurements are reported in terms of fiber counts or mass as determined by transmission electron microscopy.
The correlation between PCM fiber counts and transmission electron microscopy mass measurements is very poor.
5
  Appendix A, study 2.

13-P-0221                                                                                                        12
                      	 Depending on events, sometimes ORD had to put emphasis on one
                         chemical assessment over another; making a choice was difficult because
                         they were all high priorities with significant public health consequences.
                      	 In 2008, the former ORD/NCEA director decided that it was important to
                         complete the formaldehyde assessment in a timely fashion. Consequently,
                         in the fall of 2009, ORD/NCEA decided to focus on getting the
                         formaldehyde assessment completed and into the review/revision steps,
                         even if that meant some delay in the Libby cancer assessment.

                 Unanticipated Work and Other Priorities

                 NCEA personnel stated that assessment projects are scientifically complex and
                 milestone timelines are unpredictable, especially with regard to the time needed
                 to complete the base scientific work and to develop a draft to put into the first
                 formal review steps. Most of these large, complex projects and related
                 peer-review procedures take longer than originally forecast. For example:

                      	 Primary research took longer than anticipated because NCEA did not have
                         adequate published data. NCEA had to perform its own research on the
                         data provided by NIOSH.
                      	 To obtain the data, NIOSH and EPA entered into an interagency
                         agreement. However, the interagency agreement was delayed 6 months
                         until EPA and NIOSH attorneys agreed on privacy issues related to
                         individuals in the data.
                      	 NCEA researchers also obtained updated National Death Index6 data,
                         which was unplanned. This data also had privacy issues and added
                         6 to 8 months to the schedule.

                 No analysis was performed to determine whether the formaldehyde and Libby
                 assessments had equivalent concerns. For Libby, EPA reported deaths, illness, an
                 expensive clean-up, and continued asbestos exposure. EPA did not have similar
                 data on formaldehyde; therefore, we could not determine how EPA set it priorities
                 for determining which chemical assessment took precedence over the other.
                 Additionally, given the relative priority of the Libby Amphibole Cancer
                 Assessment study for completing the Libby toxicity assessment, the delays should
                 have been explicitly shared with stakeholders through the monthly status reports.

Communication of Plan Execution Could Be Improved

                 We found that communications regarding delays in completing the Libby Action
                 Plan items, and the reasons for those delays, were not always timely or clearly
                 communicated. After it was clear that delays were inevitable, EPA officials
                 responsible for completing the actions failed to explicitly update internal and

6
 The National Death Index is provided by the Centers for Disease Control and Prevention and is a central
computerized index of death-record information on file in states’ vital statistics offices.

13-P-0221                                                                                                  13
            external stakeholders until the due dates had passed. Further, EPA officials
            responsible for the actions failed to update the Agency’s follow-up system or
            notify the OIG about known delays until it was clear that planned corrective
            actions under the Libby Action Plan could not be met.

            Incomplete and Untimely Communication Within EPA

            We reviewed documents, such as Gantt charts, which OSWER and Region 8 used
            to brief senior Agency officials, including the EPA Administrator, about progress
            on the Libby Action Plan. The Gantt charts had completion dates later than the
            dates the Agency committed to in its April 2007 response to OIG. After
            mid-January 2008, the Gantt charts no longer showed the dates the Agency
            committed to for responding to OIG recommendations. Also, a May 2009
            OSWER document used to brief the EPA Administrator did not address the
            original planned milestones under the Libby Action Plan. These documents did
            not discuss the delays or reasons why the delays occurred.

            Also, OSWER staff responsible for tracking OSWER action on OIG
            recommendations (audit follow-up personnel) had requested periodic updates
            from appropriate officials, but it was not until September 2009 that audit
            follow-up personnel learned of the delays. Moreover, the OIG was not formally
            notified that the Agency had missed the planned milestone dates under the
            Agency’s Libby Action Plan until October 2009 (the first quarter of FY 2010),
            even though the 12 tasks in the Libby Action Plan were to be completed by the
            fourth quarter of FY 2009 (see appendix A).

            Incomplete and Untimely Communication to Members of Congress
            and Their Staff

            During an April 5, 2007, congressional hearing on the Libby site, a U.S. senator
            from Montana asked the OSWER Assistant Administrator to provide monthly
            status reports on toxicity studies being conducted in response to the
            recommendation in our December 2006 report. The OSWER Assistant
            Administrator agreed and in June 2007, OSWER began submitting monthly
            progress reports to the senator’s office. Each progress report included a short
            statement describing activity for Libby Action Plan studies.

            Our review of the progress reports issued from June 2007 through June 2011
            show no explicit description of the Agency’s change in planned milestones for the
            completion of the toxicity studies or the reason for the changes. For example, the
            OSWER monthly updates to the senator’s office for the noncancer study remained
            unchanged from December 2007 through September 2009. This information was
            incomplete, considering the Agency did not award the contract for the study to the
            University of Cincinnati until May of 2009.

            Managers with OSWER’s Office of Superfund Remediation and Technology
            Innovation acknowledged that their monthly progress reports to the senator did

13-P-0221                                                                                      14
            not explicitly mention delays to original corrective-action milestones. These
            managers also provided briefing materials for the EPA Administrator to use to
            brief the senator in March 2010. The briefing materials still included a timeline
            indicating anticipated completion of the analytical studies supporting the
            completion of the comprehensive toxicity assessment in 2010. Region 8 personnel
            informed us that they agreed with the information OSWER provided to the
            senator and his staff. However, the previous Region 8 administrator provided the
            OIG with a schedule of undocumented meetings and discussions with the senator
            during April and May 2010. While this document did show dates where Libby
            issues were addressed, we could not determine that these discussions explicitly
            addressed cause for delays.

            To clarify, in June 2012, we spoke with three staffers for the two senators from
            Montana, who either (1) participated in meetings with the Agency involving
            discussions with Libby; or (2) reviewed monthly progress reports from the
            Agency on the status of Libby cleanup activities. The purpose of our inquiry was
            to determine whether EPA informed the Montana senators or their staff about the
            delay in meeting corrective-action milestones for completing a toxicity
            assessment for Libby amphibole. The scope of our inquiry went from
            June 2007, when OSWER began submitting monthly progress reports about
            activities for the Libby Action Plan to the senators’ offices, through June 2012.
            We were told the following by the senators’ staff:

               	 Two staffers did not recall any discussions that explicitly pertained to
                  milestone delays or reasons for delays in completing the Libby toxicity
                  assessment. A third staffer vaguely remembered being told about
                  milestone delays in completing the toxicity assessment during informal
                  discussions regarding the overall cleanup effort at Libby.
               	 None of the three staffers recalled ever being told the reasons for the
                  milestone delays in completing the Libby toxicity assessment.
               	 All three staffers stated that discussions with the Agency mainly involved
                  what was happening with the overall cleanup effort at the Libby
                  Superfund site.

Other Issues
            Current Status of Peer Reviews

            The external review of the Agency’s draft IRIS Toxicological Review of Libby
            Amphibole Asbestos, on the results of the Libby Amphibole Cancer Assessment
            study and the Libby Amphibole RfC Development study, were posted for public
            comment on August 25, 2011. A public listening session was held October 6, 2011.
            The public comment period closed October 24, 2011. On February 23, 2012, an
            independent peer-review panel under the EPA SAB convened to review the
            Agency’s draft IRIS Toxicological Review of Libby Amphibole Asbestos. This effort
            was necessary for the Agency to complete the toxicity assessment.


13-P-0221                                                                                    15
                     We spoke with the former SAB director regarding the status of the SAB’s
                     peer-review efforts. The director told us that in response to ORD’s request, the
                     SAB staff office established an expert panel to conduct an independent peer
                     review of the Agency’s draft IRIS Toxicological Review of Libby Amphibole
                     Asbestos. The review panel held a public meeting February 6–8, 2012, to discuss
                     its review comments in response to EPA’s charge questions. The former director
                     also told us that on May 1 and May 8, the panel held two public teleconferences
                     to discuss the SAB’s first draft report. In early December 2012, the former
                     director said the SAB panel held a public teleconference on July 25, 2012, to
                     discuss its revised draft report. The panel’s report was considered by the chartered
                     SAB (Board) on September 25, 2012, via a public teleconference. The Board
                     tentatively approved the report, provided that revisions are made based on the
                     Board’s comments. The SAB’s final report was presented to EPA on
                     January 30, 2013.

                     Milestones for NHEERL and Epidemiology Studies Had to Be Revised

                     The Agency’s Libby Action Plan also included NHEERL and NCEA/Region 8
                     epidemiology studies7 contributing to the development of the final Record of
                     Decision and the 5-year review requirements for the Libby Superfund site. We
                     noted that these studies have been delayed as well. For instance, the NHEERL In
                     Vitro Dissolution Assays studies were set back due to the delay in the preparation
                     of testing samples. We also noted that a project scope change caused by the
                     addition of the NHEERL fiber separation studies also contributed to the delay in
                     the initial completion date for these studies.

                     Contracting delays also prevented EPA from completing the NCEA/Region 8
                     Dosimetry Model Development and Simulation Studies and the Inhalation
                     Toxicology in Rats studies based on planned milestones. The Dosimetry Model
                     Development and Simulation Studies contract was awarded 3 years late, and the
                     Inhalation Toxicology in Rats contract was awarded 15 months late.

                     Based on revised estimates by OSWER, the NHEERL animal toxicity studies will
                     be 6 years late from the original baseline date. In its correspondence dated
                     October 2009, OSWER informed the OIG that the estimated date for completing
                     the NHEERL animal toxicity studies is now September 2015. OSWER’s initial
                     estimate for completing the NHEERL animal toxicity studies was
                     September 2009. The Region 8/NCEA epidemiology studies are ongoing, and
                     several studies have been published already. These studies will continue for many
                     years to come, and will help to improve knowledge about the health effects of
                     asbestos exposure. However, OSWER’s Interim Risk Methodology for
                     Quantification of Cancer Risk from Inhalation Exposure to Asbestos study8
                     was dropped due to an unfavorable peer review. The SAB identified significant
                     concerns with this model so EPA decided not to pursue it further.
7
    Appendix A, studies 3, 5, 6, 7, 8, 9, 10, and 11.
8
    Appendix A, study 12.

13-P-0221                                                                                             16
Conclusion
            EPA has taken steps to plan and implement a toxicity assessment for Libby
            asbestos as we recommended in our 2006 report. We believe EPA could have
            made better progress to complete its work through improved communication,
            planning and execution of actions. EPA should have been clear and provided
            complete information on the challenges it was experiencing in meeting
            milestones. This could have allowed the Administrator, other senior EPA
            officials, or congressional staff to provide needed focus, assistance, or
            priority-setting direction. EPA should have issued a charter designating a project
            manager to expedite the completion of the toxicity assessment, to manage
            communication of action plan status within and outside EPA, and to keep
            contracting matters on track.

            EPA’s lack of transparency and timely, full disclosure regarding its delays and
            challenges in addressing the Libby Action Plan could reduce public confidence in
            EPA’s work and decision. As a result, residents affected by the Libby site
            contamination may think that EPA did not act as urgently as possible to address
            the significant human health and environmental risks present at the Libby site.

Recommendations
            We recommend that the:

               1.	 Assistant Administrator for Solid Waste and Emergency Response, and
                   Region 8 Regional Administrator, require action officials to:

                       a.	 Disclose significant risks to completing the Libby Action Plan.
                       b.	 Update the Libby Action Plan to reflect changes in milestone dates.
                       c.	 Distribute original and revised plans to stakeholders.

               2.	 Assistant Administrator for Solid Waste and Emergency Response,
                   Assistant Administrator for Research and Development, and Region 8
                   Regional Administrator:

                       a.	 Establish a charter to define project roles and responsibilities for
                           completing the remaining corrective actions under the Libby
                           Action Plan.
                       b.	 Determine whether the SAB or another organization will review
                           the completed risk assessment.




13-P-0221                                                                                         17
               3.	 Deputy Administrator direct the SAB to determine and report on whether:

                       a.	 EPA has followed guidance sufficient to support the findings in the
                           Libby toxicity assessment.
                       b.	 Limitations exist in applying the cancer and noncancer values to
                           the determination of acceptable levels of exposure to asbestos in
                           Libby.

               4.	 Region 8 Regional Administrator ensure that future contracts issued
                   through interagency agreements are within the scope of those agreements.

               5.	 Assistant Administrator for Research and Development require the
                   development of a priority ranking list among the ongoing IRIS
                   assessments, and that the Assistant Administrator be informed of any
                   recommended changes in those priorities. The rankings should consider
                   human health consequences.

Agency Response to Draft Report and OIG Evaluation

            The EPA stated that, in general, it had significant concerns about the OIG draft
            report. The Agency also stated that our draft report primarily focused on EPA not
            meeting the initial draft Libby Action Plan project timelines, but did not
            acknowledge accomplishments or the fact that EPA’s delay in meeting research
            timelines did not impede the extensive cleanup activities that have occurred to
            date. One of the objectives of our review was to determine how EPA had satisfied
            a previous OIG recommendation to conduct and complete a toxicity assessment of
            Libby asbestos. Our report does acknowledge the Agency’s completion of its draft
            IRIS Toxicological Review of Libby Amphibole Asbestos on the results of the
            Agency’s cancer and noncancer studies in support of its Libby toxicity
            assessment. The OIG did not review Libby cleanup actions and our report makes
            no representations about the Libby site cleanup efforts.

            In response to our draft report, the Agency agreed with Recommendation 1a,
            and disagreed with Recommendations 1b, 1c, 2a, 2b, 3a, 3b, 4 and 5.
            Recommendation 1a remains unresolved until the Agency provides sufficient
            information to determine whether the intent of this recommendation has been
            satisfied. In accordance with EPA Manual 2750, and its instructions for
            unresolved recommendations, the Agency is required to provide a written
            response to Recommendation 1a, including a proposed action plan and
            completions dates, within 60 calendar days of the report issuance.

            However, Recommendations 1b, 1c, 2a, 2b, 3a, 3b, 4 and 5 remain unresolved,
            pending dispute-resolution actions. The dispute-resolution process starts
            immediately upon report issuance.



13-P-0221                                                                                  18
            We reviewed the Agency’s comments and made changes to the report as needed.
            Appendix D provides a condensed version of the Agency’s comments and the
            OIG’s responses. The condensed version was necessary due to the voluminous
            size of the Agency’s comments concerning the draft report. We provide the
            Agency’s comments in their entirety as a stand-alone document separate from this
            report. Comments are available at http://www.epa.gov/oig.

Developments Since Issuing Our Draft Report

            Claimed Libby Action Plan Accomplishments

            In response to our draft report, Agency officials stated that substantial and
            significant progress has been achieved on important Libby Action Plan projects.

               	 EPA has developed improved analytical methods, identified adverse
                   health effects from exposure to Libby amphibole asbestos, researched the
                   mechanisms of injury, and developed a better understanding of the
                   exposure response relationships in epidemiological studies.
               	 Basic research conducted under the Libby Action Plan has resulted in 19
                   peer-reviewed publications.
               	 The draft IRIS Toxicological Review of Libby Amphibole Asbestos was
                   made available to the public in August 2011. This toxicity assessment
                   provides a Libby amphibole asbestos-specific RfC to evaluate noncancer
                   health effects and an Inhalation Unit Risk (IUR) to assess the potential
                   cancer risk from exposure to Libby amphibole asbestos in the
                   environment.

            According to EPA officials, together with site-exposure characterizations based
            on activity-based sampling, the upcoming risk assessment(s) for the Libby
            Superfund site will assess the risk to the Libby community from exposure to
            Libby amphibole asbestos, and inform site risk-management decisions and future
            site remedies.

            The Agency also stated that the Libby cleanup has substantially reduced the
            exposure levels of Libby citizens and that EPA’s delay in meeting research
            timelines did not impede the conduct of extensive cleanup activities that have
            occurred to date.

            The OIG did not substantiate these claims by the Agency.

            The SAB’s Final Report on the Agency’s Toxicity Assessment

            The SAB reviewed the Agency’s toxicity assessment, and the Board presented its
            final report to EPA on January 30, 2013. The SAB’s report cited several areas that
            need more consideration, and provided recommendations to further enhance the
            clarity and strengthen the scientific basis for the conclusions presented. This

13-P-0221                                                                                     19
            included additional analysis using cohorts other than the Marysville, Ohio, cohort,
            and to use different statistical sampling models. In response to the OIG draft
            report, the Agency said the LATAG will review the overall risk assessment and
            EPA will make the risk assessment available to the public. Review of the risk
            assessment was not within the scope of our review.

            On April 4, 2013, the director for ORD/NCEA in Washington, D.C.,
            provided the OIG with developed milestones based on a review of the SAB’s
            January 30, 2013, report, and an examination of what work the ORD expects to
            do in response to the SAB’s recommendations. The director stated ORD/NCEA’s
            schedule includes some uncertainties that could result in additional modifications
            to the schedule. Below we provide the director’s verbatim response for the
            estimated schedule and potential uncertainties:

                   Developed Milestones

                          September 30, 2013—First complete draft of revised toxicological
                           review and comment disposition.
                          January 14, 2014—Revised draft to go to Interagency and Agency
                           reviewers.
                          April 25, 2014—Revised draft to final clearance.
                          June 24, 2014—Post final toxicological review (current estimate of
                           when the final Libby Amphibole Asbestos Toxicity Review would
                           be released to the public, assuming unknown events).

                   Uncertainties

                   Estimating the timeline for further modeling work in response
                   to the SAB peer review

                   In their peer review report, the SAB agreed with many of the choices EPA
                   made on how to assess the toxicity and dose-response of Libby amphibole
                   asbestos. However, the SAB recommended that EPA conduct extensive
                   and innovative additional modeling and sensitivity analyses, which EPA
                   plans to do. These types of modeling and analyses are complex, and it is
                   difficult to predict exactly how long it will take to successfully complete
                   such modeling and analysis.

                   Potential for further peer review

                   At this point, EPA does not think that the revised IRIS assessment of LAA
                   will require additional peer review. The additional analysis being
                   conducted is directly responsive to specific SAB peer review
                   recommendations and will not need further peer review. The SAB agreed
                   that EPA should use the cohorts and endpoints used in the draft
                   assessment. After responding to the SAB recommendations, it is possible

13-P-0221                                                                                   20
                   that EPA may decide that some portions of the work (e.g., new modeling
                   or analysis) needs further targeted peer review. If EPA makes such a
                   decision, this may add time to the projected timeline.

                   Clearance

                   Because of the very high profile nature of the Libby, Montana, site, and by
                   extension, the IRIS assessment of LAA, it is possible that additional effort
                   related to briefings and communication will be needed before releasing the
                   final assessment. EPA’s projected schedule provided above allows for
                   2 months to complete formal review and final clearance, including all of
                   the requisite communications tasks and briefings. The timing of final
                   reviews and clearances are often variable with very high profile work, and
                   this step may take longer than projected.

                   Litigation

                   EPA could be required to respond to potential litigation related to Libby
                   amphibole asbestos. In the event this happens, EPA may need to devote
                   significant time to address issues which may extend the timeline.

            Libby Versus the Formaldehyde Assessment

            In November 2012, ORD personnel provided additional information regarding the
            selection of the formaldehyde assessment work over Libby work. Specifically, in
            September 2009, NCEA management requested that two scientists working on
            both the Libby and formaldehyde assessments temporarily focus only on
            completing the formaldehyde assessment so that staff could later focus on the
            Libby assessment without distraction. During our exit conference, ORD agreed to
            consider establishing a priority list of EPA projects with milestones that would
            require senior management review if any changes occurred with the milestones.




13-P-0221                                                                                      21
                                Status of Recommendations and
                                  Potential Monetary Benefits
                                                                                                                          POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                         BENEFITS (in $000s)

                                                                                                              Planned
Rec.       Page                                                                                              Completion   Claimed    Agreed-To
No.         No.                          Subject                         Status1      Action Official           Date      Amount      Amount

 1          17    Require action officials to:                                     Assistant Administrator
                    a. Disclose significant risks to completing the      U          for Solid Waste and
                       Libby Action Plan.                                          Emergency Response,
                                                                                        and Region 8
                    b. Update the Libby Action Plan to reflect           U         Regional Administrator
                       changes in milestone dates.
                    c. Distribute original and revised plans to          U
                       stakeholders.

 2          17      a. Establish a charter to define project roles and   U         Assistant Administrator
                       responsibilities for completing the remaining                for Solid Waste and
                       corrective actions under the Libby Action                   Emergency Response,
                       Plan.                                                       Assistant Administrator
                    b. Determine whether the SAB or another              U           for Research and
                       organization will review the completed risk                     Development,
                       assessment.                                                      and Region 8
                                                                                   Regional Administrator

 3          18    Direct the SAB to determine and report on whether:               Deputy Administrator
                    a. EPA has followed guidance sufficient to            U
                       support the findings in the Libby toxicity
                       assessment.
                    b. Limitations exist in applying the cancer and       U
                       noncancer values to the determination of
                       acceptable levels of exposure to asbestos in
                       Libby.

 4          18    Ensure that future contracts issued through             U              Region 8
                  interagency agreements are within the scope of                   Regional Administrator
                  those agreements.

 5          18    Require the development of a priority ranking list      U        Assistant Administrator
                  among IRIS assessments, and ensure that the                        for Research and
                  Assistant Administrator be informed of any                            Development
                  recommended changes in those priorities. The
                  rankings should consider human health
                  consequences.




       1   O = Recommendation is open with agreed-to corrective actions pending.
           C = Recommendation is resolved with all agreed-to actions completed.
           U = Recommendation is unresolved with resolution efforts in progress.




13-P-0221                                                                                                                                   22
                                                                                                  Appendix A

                   Name and Ranking of Studies Under
                     the Agency’s Libby Action Plan
                                               (as of April 2007)


                     Name of Study                              Responsible Party             Original Milestone
                                                                                                     Date

 1. Libby Amphibole Reference Concentration (RfC)                 Region 8/ NCEA              4th Quarter -FY 2009
    Development (noncancer)


 2. Libby Amphibole Cancer Assessment                               ORD/NCEA                  4th Quarter -FY 2009


 3. Preparation of Libby Testing Material                              USGS                   4th Quarter -FY 2007


 4. Fiber Size Distribution in Libby Vermiculite                      Region 8                4th Quarter -FY 2007


 5. Dosimetry Model Development and Simulation                       NHEERL*                  4th Quarter -FY 2009
    Studies

 6. In Vitro Dissolution Assays                                       NHEERL                  2nd Quarter -FY 2009


 7. In Vitro Toxicity Endpoints                                       NHEERL                  2nd Quarter -FY 2009


 8. Comparative Toxicology in Mice and Rats                           NHEERL                  4th Quarter -FY 2009


 9. Inhalation Toxicology in Rats                                     NHEERL                  3rd Quarter -FY 2009


10. New Epidemiologic Information from Libby Cohort               Region 8/NCEA               2nd Quarter -FY 2009


11. Region 8/NCEA, New Epidemiologic Information                  Region 8/NCEA               3rd Quarter -FY 2009
   From Other Cohorts


12. Interim Risk Methodology for Quantification of                    OSWER                   4th Quarter -FY 2009
   Cancer Risk From Inhalation Exposure to Asbestos

Source: EPA’s April 2007 follow-up response.
* 	The National Health Effects and Environmental Research Laboratory (NHEERL) is located in
   Research Triangle Park, North Carolina.


13-P-0221                                                                                                     23
                                                                                      Appendix B

                         Risk Assessment Guidance
The guidance documents listed below are general in nature. As the final site-specific risk
assessments have not yet been developed (awaiting final toxicity values and complete site-
specific exposure data), it is not possible at this time to determine exactly which additional
guidance documents may be eventually referenced.

1.	 EPA. 1989. Risk Assessment Guidance for Superfund, Human Health Evaluation
    Manual, Part A. (EPA/540/1-89/002. Washington, D.C.: EPA, Office of Emergency and
    Remedial Response.http://www.epa.gov/oswer/riskassessment/ragsa/index.htm

   The guidance for the development of a site-specific risk assessment. As stated in the
   document: The policies and procedures set forth here are intended solely as guidance to EPA
   and other government employee and contractors. This guidance does not constitute
   rulemaking by the Agency… EPA may take action that is at variance with the policies and
   procedures in this manual….”

2.	 EPA. 2008. Framework for investigating asbestos-contaminated superfund sites.
    Washington, D.C.
    http://www.epa.gov/superfund/health/contaminants/asbestos/pdfs/framework_asbestos_
    guidance.pdf.

   This guidance provides the methods for the calculation of cancer risk from asbestos
   exposure. This guidance also recommends methods for the statistical summary of activity-
   based sampling data.

3.	 EPA. 2009a. Risk assessment guidance for superfund volume I: Human health
    evaluation manual (Part F, supplemental guidance for inhalation risk assessment):
    Final. (EPA/540/-R-070/002). Washington, D.C.: EPA, Office of Superfund Remediation
    and Technology Innovation. http://www.epa.gov/oswer/riskassessment/ragsf/index.htm.

   This guidance is part of the overall risk assessment guidance for superfund giving more
   specific recommendations regarding the assessment of risk and hazard from inhalation
   exposures.

4. 	 EPA. 2001b. Risk assessment guidance for superfund: Volume III part A, process for
     conducting probabilistic risk assessment. (EPA 540-R-02-002). Washington, D.C.:
     EPA, Office of Solid Waste and Emergency Response.
     http://www.epa.gov/oswer/riskassessment/rags3adt/index.htm

   This guidance provides methods for alternative approaches for the calculation of exposure
   and risk estimates based on statistical distributions rather than single point estimates.



13-P-0221                                                                                        24
                                                                                   Appendix C

                    Toxicity Assessment Guidance
1.	 EPA. 1986b. Guidelines for mutagenicity risk assessment [EPA Report]. (EPA/630/R-
    98/003). Washington, D.C. http://www.epa.gov/iris/backgrd.html.

   These guidelines informed the evaluation of available scientific information regarding the
   potential mutagenicity of the Libby Amphibole asbestos fibers. (Section 4.4.2)

   The evaluation of mutagenic potential primarily applies to the cancer assessment.

2.	 EPA. 1991a. Guidelines for developmental toxicity risk assessment [EPA Report].
    (EPA/600/FR-91/001). Washington, D.C.: EPA, Risk Assessment Forum.
    http://www.epa.gov/iris/backgrd.html.

   Although there are no developmental data specific to the Libby Amphibole, the potential for
   developmental effects is discussed in Section 4.7 addressing susceptible populations
   (including life stages). These guidelines would apply to the general data on asbestos which
   may address the potential for developmental effects.

3.	 EPA. 1994a. Interim policy for particle size and limit concentration issues in inhalation
    toxicity studies [EPA Report]. Washington, D,C.: EPA, Office of Pesticide Products,
    Health Effects Division. http://cfpub.epa.gov/ncea/cfm/recordisplay.cfm?deid=186068.

   These are general guidelines for evaluating exposure conditions for animal inhalation studies
   and were used in evaluating the studies in Appendix D of the Toxicological Review where
   applicable.

4.	 EPA. 1994b. Methods for derivation of inhalation reference concentrations and
    application of inhalation dosimetry. (EPA/600/8-90/066F). Research Triangle Park,
    N.C.: EPA, Office of Research and Development, Office of Health and Environmental
    Assessment, Environmental Criteria and Assessment Office.
    http://cfpub.epa.gov/ncea/cfm/recordisplay.cfm?deid=71993.

   This guidance was used in derivation of an RfC for the Libby Amphibole (Section 5.2), as it
   provides the primary guidance for establishing reference concentrations under the IRIS
   Program.

   This guidance was used to calculate the exposure estimates for the occupational cohorts
   which were the basis of both the RfC and IUR (Sections 5.2.3.1 and 5.4). {Although the
   Guidance was written specifically for the RfC process, the 2005 EPA Cancer Guidelines
   recommend the same procedures be employed in inhalation cancer assessments (see section
   3.1.1.2 of the cancer guidelines, EPA, 2005)}



13-P-0221                                                                                       25
5.	 EPA. 1995. The use of the benchmark dose approach in health risk assessment
    [EPA Report]. (EPA/630/R-94/007). Washington, D.C.
    http://www.epa.gov/raf/publications/useof-bda-healthrisk.htm.

   Although this guidance is being updated (see EPA 2000a), this technical guidance provides
   the foundation for the exposure-response modeling of the noncancer health effects observed
   in the O.M. Scott cohort and used as the basis for the RfC.

   The guidance also informed some of the decisions in the exposure-response modeling in
   support of IUR derivation.

6.	 EPA. 1996. Guidelines for reproductive toxicity risk assessment [EPA Report].
    (EPA/630/R-96/009). Washington, D.C.: EPA, Risk Assessment Forum.
    http://www.epa.gov/raf/publications/pdfs/REPRO51.PDF.

   Although there are no reproductive data specific to the Libby Amphibole, the potential for
   reproductive effects is discussed in Section 4.7 addressing susceptible populations. These
   guidelines would apply to the general data on asbestos, which may address the potential for
   reproductive effects.

7.	 EPA. 2000a). Benchmark dose technical guidance document [external review draft].
    (EPA/630/R-00/001). Washington, D.C.: EPA, Risk Assessment Forum.
    http://www.epa.gov/raf/publications/benchmark-dose-doc-draft.htm.

   This technical guidance was applied to the exposure-response modeling of the noncancer
   health effects observed in the O.M.Scott cohort and used as the basis for the RfC.
   (Sections 5.2.3–5.2.5)

   The guidance also informed some of the decisions in the exposure-response modeling in
   support of IUR derivation. (Sections 5.4.3–5.4.5)

8.	 EPA. 2000c. Science policy council handbook: Risk characterization. (EPA 100-B-00-
    002). Washington, D.C.: EPA, Office of Research and Development, Office of Science
    Policy. http://www.epa.gov/osa/spc/pdfs/rchandbk.pdf.

   This general guidance document informed the scientific evaluations and decisions in both the
   cancer and noncancer portions of the toxicological review.

9.	 EPA. 2002. A review of the reference dose and reference concentration processes.
    (EPA/630/P-02/002F). Washington, D.C.
    http://cfpub.epa.gov/ncea/cfm/recordisplay.cfm?deid=51717.

   This review provides a summary of current practices as well as recommendations for the
   IRIS Program where setting reverence values, and informs the RfC derivation for Libby
   Amphibole asbestos. (Section 5.2)



13-P-0221                                                                                        26
10. EPA. 2005a. Guidelines for carcinogen risk assessment. (EPA/630/P-03/001F).
    Washington, D.C. http://www.epa.gov/cancerguidelines/.

   The Cancer Guidelines were followed for all aspects of the Libby Amphibole asbestos cancer
   assessment: hazard identification, discussion of Mode of Action, determination of
   carcinogenicity (carcinogenic to humans), exposure-response modeling and IUR derivation
   from the chosen exposure-response model(s). (Sections 4.4, 4.6 and 5.4)

11. EPA. 2005b. Supplemental guidance for assessing susceptibility from early-life exposure
    to carcinogens. (EPA/630/R-03/003F). Washington, D.C.: EPA, Risk Assessment Forum.
    http://www.epa.gov/cancerguidelines/guidelines-carcinogensupplement.htm.

   The supplemental guidance was employed in Section 4.6.2, where the mode of action
   information is reviewed to determine if the adjustment factors for early-life exposure should
   be applied.

12. EPA. 2006b. A framework for assessing health risk of environmental exposures to
    children. (EPA/600/R-05/093F). Washington, D.C.
    http://cfpub.epa.gov/ncea/cfm/recordisplay.cfm?deid=158363.

   This guidance was applied in those sections which discuss the exposures to children 

   (Section 2.3 exposure potential, Section 4.7 susceptible populations). 


13. EPA. 2006d. Science policy council handbook: Peer review, 3rd edition.
    (EPA/100/B-06/002). Washington, D.C.: EPA, Science Policy Council.
    http://www.epa.gov/OSA/spc/2peerrev.htm.

   The external peer review of the Libby Amphibole Asbestos Toxicological Review is being
   conducted by the EPA Science Advisory Board.

14. International Labour Organization (ILO), World Health Organization (WHO). (2002).
    International classification of radiographs of pneumoconioses. In (Rev. Ed. 2000 ed.,
    Vol. 22). Geneva, Switzerland: International Labour Office.

   This guidance document was cited in Section 5.2.2 where the noncancer health effects
   providing the basis of the RfC are evaluated. As this WHO publication is the standard for
   describing the noncancer health effects of asbestos exposures based on standard radiographs,
   these guidelines were used in evaluating and describing the critical health effect on which the
   RfC is based.




13-P-0221                                                                                      27
                                                                                   Appendix D

              OIG Consolidated Responses to 

          Agency’s Comments on Libby Draft Report 

The Agency provided extensive comments to the draft report in three separate documents. This
included main comments dated September 5, 2012 from the Assistant Administrators for
OSWER and ORD, and the Region 8 Administrator. Additional attachments included comments
rendered by the Agency’s Deputy Chief of Staff on August 10, 2012, and the Agency’s
NHEERL on or about September 5, 2012. We summarize and respond to those comments
below. We have organized them into the following topics: general comments, charter comments,
cancer study comments, noncancer study comments, communications comments, interagency
agreement comments, Science Advisory Board comments, NHEERL comments,
recommendation comments, and EPA Deputy Chief of Staff Comments. We provide these 3 sets
of comments in their entirety as a stand-alone document separate from this report at website
(http://www.epa.gov/oig).

General Comments.
Understanding Health Effects. EPA stated that the draft report did not acknowledge EPA’s
major strides in improving the understanding of health effects of exposure to Libby asbestos.

    OIG Response 1: The purpose of this review was to determine how EPA had satisfied
    our previous recommendation to conduct and complete a toxicity assessment of Libby
    asbestos. However, we have included information in our report provided by the
    Agency in response to our draft report on progress made under the Libby Action Plan
    projects.

Reducing Exposure Levels. EPA stated the draft report did not acknowledge that EPA had
substantially reduced exposure levels of Libby citizens through the cleanup efforts.

    OIG Response 2: The purpose of this review was to determine how EPA had satisfied
    our previous recommendation to conduct and complete a toxicity assessment of Libby
    asbestos. The OIG did not review the effectiveness of the cleanup.

Delays Did Not Impede the Cleanup. EPA stated the draft report did not state that the delays in
meeting the research timelines did not impede the cleanup.

    OIG Response 3: The draft report makes no inference that the delays in completing the
    toxicity assessment delayed the cleanup. We did not review the cleanup, which is a
    separate activity from the toxicity assessment.

Draft Report Focused Primarily On Meeting Draft Milestones. EPA stated that the draft
report focused primarily on EPA not meeting the initial draft Libby Action Plans milestones.

13-P-0221                                                                                       28
       OIG Response 4: We disagree that the draft report focused primarily on EPA not meeting
       the LAP milestones. The focus of the findings and recommendations is on how EPA
       established the milestones and why EPA experienced delays.

The OIG Acknowledges that the Draft Milestones Were Unachievable. EPA stated that the
OIG acknowledges that the milestones were unachievable.

       OIG Response 5: We disagree that the draft report acknowledges the LAP milestones were
       not achievable. The OIG reports that EPA personnel stated at the initiation of the OIG
       review that EPA knew the LAP milestones were not achievable when EPA presented them
       to stakeholders. Further, the milestones were the estimates that the action official agreed to.
       In an April 2007 memorandum, EPA informed the OIG that:

                 The milestone for the completion of the baseline risk assessment including a
                  comprehensive toxicity assessment would be September 30, 2010.
   `             The tentative date to complete the NHEERL animal studies was September 30,
                  2009.
                 In an attachment to the memorandum, EPA provided tentative completion dates
                  for each of the 12 individual studies supporting the toxicity assessment, which
                  ranges from the fourth quarter of FY 2007 to the fourth quarter of FY 2009.

       EPA did not update the milestones until October 20, 2009. At that time, they informed the
       OIG that the milestone to complete the baseline risk assessment including a comprehensive
       toxicity assessment changed from September 30, 2010 to September 30, 2012. EPA also
       informed the OIG that the baseline to complete the NHEERL animal studies changed from
       September 30, 2009 to September 30, 2015.


The OIG Uses the Term “Toxicity Assessment” Incorrectly. EPA stated that despite the
detailed information they provided and the availability of numerous EPA program and guidance
documents, the term “toxicity assessment is used to convey three different meanings, only one of
which is correct. Further EPA stated that the OIG draft report in several places continues to
confuse an agent-specific toxicity assessment and a site-specific risk assessment.

       OIG Response 6: We disagree. We reviewed each instance of the term toxicity assessment
       in the draft report and all refer to the work EPA committed to perform to satisfy the report
       recommendation or are statements made by EPA personnel. The term agent-specific toxicity
       assessment is a term EPA uses in its comments to this report. It is not a term the OIG uses.
       The OIG does not refer to the term site-specific risk assessment in the introduction or other
       part of the report. Appendix A, Risk Assessment Guidance, provided by the Agency,
       provides the only mention of a site-specific risk assessment. The Agency identified twelve
       studies that comprise the toxicity assessment (see appendix A); however, the report is clear
       that the work accomplished by EPA to date will only reflect two, the cancer and noncancer
       studies due to EPA delays in completing all the toxicity work.


13-P-0221                                                                                           29
EPA Milestones Should Not Be Used as Baselines. EPA states that it does not agree with the
OIG’s interpretation that the draft timelines provided in April 2007 should be the baseline
against which the EPA’s progress on LAP projects should be evaluated.

      OIG Response 7: We disagree with the EPA interpretation that the report findings are
      based primarily on EPA not meeting the LAP milestones. The original baselines show that
      EPA experienced significant delays in completing the toxicity assessment. OSWER
      informed the OIG that the estimated date for completing the comprehensive toxicity
      assessment was revised from September 30, 2010 to September 30, 2012 (two year delay),
      and September 2015 (initially September 2009 ) for the NHEERL animal toxicity studies
      (6 year delay). However, the report findings are based upon the EPA management actions
      that contributed to the delays.


Revisions Did Not Cause Delays. EPA stated that the action of revising the timelines did not
affect the execution of the LAP projects. The action of revising the timelines reflected – not
caused – project delays.

       OIG Response 8: We agree that the sentence stating that is unnecessary and
       confusing. Therefore, we are removing it from the report.


Title Page and Cover: EPA states the OIG’s field investigation and review seems to have
    addressed all projects under the Libby Action Plan (LAP). As such they recommend the title
    reflect this is a report on the progress of all LAP projects, not just the toxicity assessment.


       OIG Response 9: The title of the report accurately reflects progress made under the
       Agency's Libby Action Plan. EPA characterization of the OIG review is incorrect.
       The 12 LAP studies did comprise of the toxicity assessment. For example in her
       April 2007 Congressional testimony the former OSWER assistant administrator
       stated, “…the Agency has identified and is implementing a comprehensive program
       of 12 studies to support the development of the Libby toxicity assessment. The
       cancer and noncancer work are clearly listed as two of the studies. This is also
       consistent with the information EPA provided to the OIG.


At A Glance and Chapter 1, Background: EPA states that the OIG draft report indicates the
concerns of the Libby community centered around “lawn and garden products from Libby.” The
concerns of the citizens include potential exposures and environmental contamination from past
mine operations, waste materials used as fill in the community, use of expanded vermiculite in
buildings (e.g. homes, schools) for insulation and use of both waste materials and expanded
vermiculite as a soil amender. The Libby Superfund site is not focused only on contaminated
lawn and garden products.




13-P-0221                                                                                        30
      OIG Response 10: The EPA characterization of the report is not correct. The report
      language is as follows: In 2000, due to citizen concerns, EPA started sampling and
      analyzing lawn and garden products from Libby that contained vermiculite. The
      report does not state that the concerns of Libby citizens centered on lawn and garden
      products. Rather, it states the action EPA took.


LAP Projects. EPA states that the list of LAP projects provided to the OIG as shown in
Appendix A of the draft report are not in order of priority, and requests that the statement making
reference to the order of priority of these projects be removed for accuracy.

   OIG Response 11: EPA personnel provided this information. More specifically, EPA's
   documentation states the RfC development study was ranked number one by the
   Agency relative to its priority for completing the Libby toxicity assessment; and,
   completion of the Libby Amphibole cancer assessment study was ranked second in
   terms of relative priority by the Agency for completing the Libby toxicity assessment.
   EPA has not stated why the information is not correct or provided a new list arranged in
   accordance with priority. EPA should provide justification for this change in the 60 day
   comments to the final report. That justification should include the priority ranking of
   the remaining studies.


Unclear Statement. EPA states the following statement is unclear “We were told by OSWER
managers that the derivation of the reference concentration (RfC) and inhalation unit risk (IUR)
for Libby amphibole asbestos were needed for completion of the site-specific risk assessment.”

   OIG Response 12: We disagree that the statement as written by EPA was in the draft
   report. The closest report language to the EPA statement is as follows. “We were told
   by OSWER managers that studies 1 and 2 were especially critical to completing the
   toxicity assessment in response to OIG recommendation 1 based on their priority
   ranking.” This particular statement is supported by evidence gathered during our
   evaluation.

The Libby Action Plan Coordinator Is Not Recognized. EPA states the OIG Draft Report
does not acknowledge the Libby Action Plan Coordinator, who had the primary responsibility
for coordination of the projects among the offices. As this was a key aspect of LAP
management, this information needs to be included.

   OIG Response 13: The report addresses the responsibilities of OSWER, ORD and
   Region 8 in carrying out the Libby Action Plan. As such, we spoke with the Action
   Officials for OSWER, ORD and EPA Region 8 during meetings leading up to the
   issuance of the draft.



13-P-0221                                                                                       31
Personnel Not Interviewed. EPA stated that no NHEERL personnel were interviewed
during this field investigation including the first two LAP coordinators who were responsible
for planning and coordinating the overall NHEERL research effort. Nor were personnel in
ATSDR, the lead Agency for projects 10 and 11 contacted in the field investigation.

   OIG Response 14: The OIG conducted an entrance conference with EPA to discuss the
   review and to determine whom the OIG needs to interview. We saw no benefit to
   interviewing these personnel. The purpose of the review was to determine EPA efforts in
   developing and completing the toxicity assessment.


The Term “Listing” Has a Specific CERCLA Meaning. EPA states that “Listing “has a
specific meaning in the context of CERCLA and is used to refer to a site being added to the
National Priorities list. It is not appropriately used in the OIG report. EPA recommends the
reference to “listed” be removed.

   OIG Response 15: The report is not a CERCLA document and the term “listed” is used
   appropriately. The term is used several times and in no way conveys that the subject of
   conversation refers to listing on the National Priorities List in the draft report. Where
   necessary, we have used the term National Priority Listing in reference to Libby as a
   Superfund site.

Specific Word Changes to Draft Report.

Page 3, line 44: strike “determining” replace with “conducting.”
Page 4, line 2: Should read “… conducting inhalation toxicology studies in rats.”
Page 4, line 7: Should read “site-specific reference concentration (RfC) for the Libby
   amphibole asbestos…”
Page 5 and 6, Scope and methodology: Add the following bullet “Briefings to senior
   managers.”

    OIG Response 16: We agreed with each word change request. All changes are
      reflected in the final report.

Charter Comments
No Charter Necessary to Complete Libby Work. A LAP Coordinator was appointed from
management of one of the participating offices and was responsible for cross-Agency
coordination of all of the individual projects within the LAP

      OIG Response 17: Our report addresses the role and responsibilities of the Assistant
      Administrator for OSWER and ORD, and the Region 8 Administrator whom,
      according the Agency managers, served as the senior Agency officials ultimately
      responsible for ensuring the completion of corrective actions under the LAP. In this
      structure, each office was only responsible to itself.


13-P-0221                                                                                       32
      OIG Response 17 Continued

                  OSWER was responsible for oversight of the Libby Action Plan and
                   reporting progress made to internal and external stakeholders.

                  ORD’s National Center for Environmental Assessment (NCEA) was
                   responsible for conducting a cancer assessment specifically for Libby
                   amphibole for the Integrated Risk Information System (IRIS).

                  EPA Region 8, with assistance from ORD/NCEA, was responsible for
                   developing the Libby reference concentration (RfC) for Libby amphibole.

            However, our review revealed the Agency’s efforts to carry out its Libby Action
            Plan experienced significant delays with this management structure. OSWER
            oversight was not sufficient or empowered to ensure that:

                  ORD and Region 8 estimates to complete the studies were reasonable.
                  ORD did not postpone Libby work to complete another assessment without
                   justification.
                  EPA and University of Cincinnati scientists began work on the non-cancer
                   study as soon as possible rather than spend 19 months issuing the contract.


Cancer Study Comments

   Libby Should Not Be The Sole EPA Priority. EPA stated that it is incorrect that the
   declaration of the public health emergency in Libby Montana should have made the
   Toxicological Review of Libby Asbestos the sole priority toxicity assessment for EPA.

            OIG Response 18: We disagree that the report states that Libby should be the sole
            EPA priority. The OIG does not state that the declaration of the public health
            emergency required EPA to make Libby the top priority. Rather, the OIG found
            that the Agency could not provide criteria to make one assessment a priority over
            the other. Specifically, EPA data acknowledges death and illness due to exposure to
            Libby asbestos, over $400 million spent on the cleanup, Libby asbestos is in
            millions of American homes, and EPA’s only issuance of a public health
            emergency as reasons to make Libby a priority. At the time of the review,
            responsible EPA personnel could not provide similar reasons for other assessments.
            Therefore, we recommended that the Assistant Administrator for Research and
            Development develop a priority list for pending and ongoing research, not to make
            Libby the sole priority. During our exit conference, an ORD official stated ORD
            would consider establishing a priority list of EPA projects with milestones that
            would require senior management review of any changes in the milestones. We
            believe it is consistent with EPA’s mission to clearly factor in human health risks
            when deciding on priorities.


13-P-0221                                                                                         33
   Competing Demands Not the Sole Reason for Delays in the Cancer Study. EPA disagrees
   with any implied finding that the delay in completing the Toxicological Review of Libby
   Amphibole Asbestos was due solely to competing demands.

            OIG Response 19: We disagree that the report makes that statement. The report
            clearly states that competing priorities and unplanned work caused delays in
            completing the cancer study. The specific details of each as provided by EPA
            personnel are included in the report. However, we have changed the wording from
            unplanned work to unanticipated work.


Noncancer Study Comments
   Contracting Issues Did Not Delay the Noncancer Study. EPA stated that it did take action
   to try to expedite contracting procedures by choosing to use an existing contract mechanism
   through the Volpe Center.

            OIG Response 20: EPA’s response does not reflect the Agency’s Interagency
            Policy and Procedures Compendium, which states that the agreement must be for an
            independent and distinct project. The scope of work listed in the agreement was for
            the Volpe Center to perform site-specific clean-up work at the Libby site, not to
            develop a noncancer value with the University of Cincinnati. Further, EPA’s
            response does not recognize that the Volpe Center provided no technical work in
            developing the noncancer value. Specifically, the EPA staff member who chose the
            Volpe Center believed that the Volpe Center was better at contracting and was faster
            and more innovative than EPA in getting contracts done. EPA’s response also does
            not account for the fact that performing pass through acquisitions, as defined by the
            Volpe center, was against Volpe Center Policy. The Volpe Center stated that their
            work on the interagency agreement must be technical in nature but the statement of
            work states that Volpe would facilitate communication between EPA and University
            of Cincinnati scientists. In our opinion, facilitating communication is not a technical
            role in developing a noncancer toxicity value.


Communications Comments
   EPA Communications with the Senate. EPA states the OIG should reconsider their
   statements that EPA communications to the Senate were “misleading.”

             OIG Response 21: We concur. We have made changes to the report, as
             appropriate. Specifically, the report now states that reports provided to the
             senators were incomplete rather than misleading.




13-P-0221                                                                                         34
   EPA Provided Information to Internal and External Stakeholders. EPA has briefed
   community stakeholders on LAP project status and timelines across the course of the
   projects. Although EPA did not contrast the timelines to the draft timelines provided in the
   Agency’s response to the OIG (April 2007), community stakeholders had the best available
   current project status and timelines well before September 2009.

            OIG Response 22: The report does not dispute that EPA provided information to
            stakeholders. The report does show that the information provided was not always
            complete and in the case of the LAP, the information was incomplete.


InterAgency Agreement Comments
   The Volpe Center Did Not Perform a Pass Through Acquisition for EPA. EPA did not
   use Volpe as a pass-through vehicle for contracting. Volpe Center provides EPA with
   technical assistance in Superfund site cleanup to include site assessment and remedy
   selection.


            OIG Response 23: We disagree. The EPA comment does not reflect that:

                   EPA staff admitted they used the Volpe Center for contracting support to
                    avoid using EPA contracting.
                   The Volpe Center performed no technical work in developing the
                    noncancer value.
                   The agreement must be for an independent and distinct project.

        We believe Region 8’s use of the Libby Clean-up IAG to award a contract to the
        University of Cincinnati exceeded the scope of work under the agreement between
        Region 8 and the Volpe Center. Region 8’s interagency agreement with the Volpe
        Center is site specific and the scope of work describes authority for work to be done at
        Libby, Montana, and not at the University of Cincinnati in Ohio.



EPA and Volpe Do Not Fault Each Other for the Delays. EPA disagrees with the OIG
statement “Rather, EPA and the Volpe Center fault each other for the delays.”

            OIG Response 24: The draft report statement is accurate. EPA and the
            Department of Transportation Volpe Center personnel provided contrary opinions
            as to who was at fault for the delay in issuing the contact awarded for the
            noncancer assessment study under the Libby Action Plan. EPA personnel faulted
            the Volpe Center for delays in completing the noncancer study. In turn, the Volpe
            Center responded that EPA did not know what tasks it wanted to complete under
            the contract and that contributed to the delays.


13-P-0221                                                                                       35
Science Advisory Board Comments
The Role of the SAB. EPA stated there are critical flaws in the findings and recommendations
of the OIG Draft Report with respect to external peer review and the role of the EPA SAB. This
issue has been independently addressed by the Office of the Administrator. The EPA Deputy
Chief of Staff responded for the Office of Administrator stating that the SAB review is still
ongoing and, therefore, it is not appropriate to include SAB review comments in the OIG report.

            OIG Response 25: In response to the EPA Deputy Chief of Staff comments
            regarding this issue, we note that the statements made by the SAB Staff Director
            are in response to questions posed by the OIG and are not taken from the SAB
            draft report. However, the SAB's final report is public. The SAB's report cited
            several areas that need more consideration, and provided recommendations to
            further enhance the clarity and strengthen the scientific basis for the conclusions
            presented in the draft toxicity assessment. Also note that the OIG report does not
            recommend that the SAB direct EPA actions. The EPA has turned to the SAB for
            scientific review of its risk assessments. It does not appear constructive for EPA
            to engage expert SAB panels but deny the panel information they believe is
            necessary to do their jobs effectively. Resolution of the issues could reduce the
            limitations associated with SAB reviews of future EPA risk assessments.
            Additionally, resolution of these issues could improve public confidence in EPA
            risk assessments.

NHEERL Comments
   EPA Was Responsive to Reviewer Comments. The OIG does not acknowledge that EPA
   was responsive to the reviewer comments and EPA revised the project plans accordingly.

         OIG Response 26: Our review objectives were to determine why the Agency did not
         meet planned corrective action milestones in response to the recommendations in the
         OIG’s December 2006 report. EPA provided documentation to the OIG in October
         2009 stating that the laboratory studies are expected to be completed in 2012;
         however, EPA anticipated that an additional two to three years was necessary to
         assess results, develop technical summary reports, and have the reports peer reviewed.
         The report does not infer that EPA was non-responsive.


   Delays in Government Contracting on the NHEERL Studies. EPA states that the OIG
   should acknowledge that although true, these contracting delays (delays is government
   contracting) were not the critical factor to delays in the NHEERL research projects. The
   unforeseen technical difficulties in producing adequate quantities of test material were the
   rate limiting factor.

         OIG Response 27: The OIG did not rate the factors limiting the completion of the
         NHEERL studies. However, EPA cannot ignore certain factors that cause delays.


13-P-0221                                                                                         36
   Fiber Separation Studies. EPA states the need for fiber separation studies only resulted in
   minor project delays (a few months).

         OIG Response 28: The report does not attempt to post the time caused by each
         delay. Rather, it lists the causes of the delay as stated by EPA.


   Dosimetry Delays. EPA states that the dosimetry contract was delayed because it was
   initially developed as a desired sole source contract. It was eventually awarded based on
   open competition.

         OIG Response 29: As the report states, EPA informed the OIG that multiple
         actions contributed to the delays the cumulative effect being a 6 year delay. The
         OIG did not attempt to rank the amount of delay attributed to each action.
         However, EPA cannot state that the contracting delay was not consequential. EPA
         could not conduct the tests without the proper material. It also could not conduct
         the tests without having the contract in place.



   NHEERL Delays. EPA states although the completion of all animal toxicity studies is
   projected for 2015, this date reflects completion of all laboratory studies as well as
   completion of all project reports and publications. The OIG report should acknowledge that
   many of the subject studies have been completed and that results have published in peer
   reviewed scientific journal demonstrating significant progress.

            OIG Response 30: The draft report lists the delays and causes of the delays EPA
            presented in completing the NHEERL studies. Specifically, in October 2009 EPA
            informed the OIG that the time frame for these studies have been extended due to
            unforeseen problems in preparing the dosing material for animals studies, delays
            in government contracting, and revisions to the experimental designs. While EPA
            states that many of the studies have been done or will be completed in 2012, EPA
            also states that assessing the results would take another two to three years.
            Therefore, EPA established a new completion date of September 2015 versus
            September 2009 (6 years). Further, the report correctly states the studies are
            6 years late based upon the information EPA provided. While it is good to know
            that EPA is making progress it does not change the fact that stakeholders will have
            to wait 6 years before the information can be used.




13-P-0221                                                                                         37
Recommendation Comments

1a) Assistant Administrator for Solid Waste and Emergency Response and Region 8
Regional Administrator require action officials to: Disclose significant risks to completing
the Libby Action Plan.

   EPA Response: Concur
   When and if, EPA is aware of factors that have the potential to affect the current project
   milestones, this information will be shared with stakeholders.

       OIG Response 31: The OIG acknowledges the Agency’s concurrence. In response to
       our draft report, Agency officials stated when, and if, EPA is aware of factors that have
       the potential to affect the current project milestones, this information will be shared
       with stakeholders. However, the Agency has not provided an action plan with the
       mechanism for contacting the stakeholders and specifying how soon after the delays
       are known that the stakeholders would be informed. Therefore, Recommendation 1a
       status is unresolved pending an action plan with completion dates (when determined)
       for the agreed-to recommendations.


   1b) Assistant Administrator for Solid Waste and Emergency Response and Region 8
   Regional Administrator require action officials to: Update the Libby Action Plan to
   reflect changes in milestone dates.

   EPA Response: Nonconcur.

   Alternative text: “OIG finds that the LAP coordinator maintains a current timeline for all
   LAP activities conducted across the Agency and that senior management from ORD,
   OSWER, and Region 8 is regularly updated of LAP project status.”

            OIG Response 32: The Agency disagreed with Recommendation 1b, even though
            they have agreed to keep stakeholders informed in Recommendation 1.a. Therefore,
            Recommendations 1b is unresolved with dispute actions pending. The dispute
            resolution process starts within 30 calendar days of the report issuance.


   1c) Assistant Administrator for Solid Waste and Emergency Response and Region 8
   Regional Administrator require action officials to: Distribute original and revised plans
   to stakeholders.

   EPA Response: Nonconcur

   EPA believes it has kept stakeholders informed. Specifically, EPA stated it has provided
   monthly status reports to Congress, addressed LAP status in Senate testimony, attended
   regular meetings with interested Senate staff, responded to all requests for information on



13-P-0221                                                                                          38
   LAP projects, and has briefed community stakeholders on LAP project status and timelines
   across the course of the projects.

   Alternative Remedy: EPA will continue to provide updates of schedules to stakeholders as
   the progress on the LAP continues. In future updates, EPA will provide clear information on
   schedule changes to the current project milestones of LAP projects.

         OIG Response 33: The Agency disagreed with Recommendation 1c. However, we do
         concur that the Agency has provided information to stakeholders although our report
         does not fully support that complete information has always been provided. Therefore,
         Recommendations 1c is unresolved with dispute actions pending.


2a) Assistant Administrator for Solid Waste and Emergency Response, Assistant
Administrator for Research and Development, and Region 8 Regional Administrator:
Establish a charter to define project roles and responsibilities for completing the remaining
corrective actions under the Libby Action Plan.

   EPA Response: Nonconcur
   The OIG Draft Report does not support a finding that the current tri-chair structure with a
   LAP Coordinator is ineffective.

   Alternative Remedy: No corrective action needed. EPA does not believe establishing a
   formal charter is necessary to address the OIG’s concern with respect to communicating
   project milestones.

         OIG Response 34: The Agency disagreed with Recommendation 2a. We disagree that
         the purpose of the charter is to communicate project milestones. The purpose of the
         recommendation is to help EPA improve its management of the completion of the
         remaining LAP studies. The report shows that OSWER, ORD, and Region 8 oversaw
         initial efforts under the Libby Action Plan, discussed cross-coordination efforts within
         EPA, and approved funding. However, each member was only responsible for the
         Libby Action Plan studies assigned to them and no office has the authority to oversee
         the actions of all offices. Therefore, a single entity did not have the authority to review
         the causes for the delays and to offer remedies. As a result, EPA distributed the LAP
         to stakeholders with the knowledge that the milestones were not achievable,
         contracting issues delayed the development of the noncancer value, an interagency
         agreement was used to avoid EPA contracting personnel, competing priorities and
         unanticipated work delayed development of the cancer value, and communications
         with stakeholders could be improved. Therefore, Recommendation 2a is unresolved
         with dispute actions pending.




13-P-0221                                                                                         39
2b) Assistant Administrator for Solid Waste and Emergency Response, Assistant
Administrator for Research and Development, and Region 8 Regional Administrator:
Determine whether the SAB or another organization will review the completed risk
assessment.

   EPA Response: Nonconcur
   An additional peer review is unnecessary and would delay final remedy selection and
   finalization of the Record of Decision for the Libby Superfund site. Site-specific risk
   assessments represent the application of EPA policies and guidance. They are released for
   public comment but do not undergo a separate expert peer review since any influential
   scientific information on which they rely has already undergone peer review. As the Libby
   amphibole asbestos toxicity assessment is currently being reviewed by the SAB and the
   Libby site-specific risk assessment will be based on the peer-reviewed toxicity values, it is
   unclear what would be accomplished by a second SAB review.

   Alternative Remedy: No corrective action needed.

         OIG Response 35: The Agency disagreed with Recommendation 2b. However,
         the Agency proposed action is responsive to the recommendation as the Agency
         has committed to have the LATAG review and comment on the risk assessment.
         Therefore, Recommendation 2b is unresolved with dispute actions pending.


3a) Deputy Administrator Direct the SAB to determine and report on whether EPA has
followed guidance sufficient to support the findings in the Libby toxicity assessment.

   EPA Response: Nonconcur
   The SAB is currently conducting an independent scientific peer review of the External
   Review draft of the Toxicological Review of Libby Amphibole Asbestos. The SAB conducts
   its peer review in the context of EPA guidelines on risk assessment along with their own
   expert knowledge of the characteristics of asbestos, toxicity assessment, and exposure-
   response analysis done for purposes of cancer and non-cancer risk evaluation. The questions
   posed by EPA to the SAB are presented in the public “charge” to the Board. That charge
   includes specific questions on the key issues in the assessment and makes explicit reference
   to EPA guidances, such as the Guidelines for Carcinogen Risk Assessment (U.S. EPA, 2005)
   and to EPA’s Draft Benchmark Dose Technical Guidance (EPA, 2000).

   The OIG provides no rationale as to why an additional or different peer review of the
   Toxicity Assessment by the SAB is needed. The SAB is anticipating making their final
   recommendations to the EPA Administrator in December, 2012. EPA does not agree that any
   additional review of the Toxicity Assessment is needed from the SAB.

   Alternative Remedy: No corrective action needed. EPA's position is that an additional
   review by the SAB is neither warranted nor necessary.




13-P-0221                                                                                          40
          OIG Response 36: The Agency disagreed with Recommendation 3a. We note that the
          recommendation does not require the SAB to perform an additional review. The
          recommendation requires the SAB to comment on whether EPA followed sufficient
          guidance to support the findings in the Libby toxicity assessment. The Agency
          disagreed but stated that the information would be in the final SAB report regardless of
          the OIG recommendation. Further, despite its disagreement, the Agency's proposed
          action is responsive to the recommendation. Therefore, Recommendation 3a is
          unresolved with dispute actions pending.


3b) Deputy Administrator direct the SAB to determine and report on whether limitations
exist in applying the cancer and noncancer values to the determination of acceptable levels
of exposure to asbestos in Libby.

   EPA Response: Nonconcur
   EPA is unclear what the OIG intends with the specific wording in the draft Recommendation
   3b.

   If the OIG intends that the SAB should provide advice on limitations of the Toxicological
   Review or difficulties in its application; that issue is already being addressed per the specific
   charge questions given to the SAB for their review of the Toxicological Review of Libby
   amphibole asbestos. Response D.1 provides details of these questions with respect to the
   SAB’s assessment of the “uncertainties and limitations” of the results of the toxicological
   review.

   Alternative Remedy: No corrective action needed. The SAB has already reviewed the
   toxicity assessment and was asked by the Agency to identify “uncertainties and limitations.”
   The toxicity assessment does not set “acceptable levels” for specific sites.

        OIG Response 37: The Agency disagreed with Recommendation 3b despite the EPA
        Deputy Chief of Staff stating that the requested information would be in the final SAB
        report. Therefore, Recommendation 3b is unresolved with dispute actions pending.

4) Region 8 Regional Administrator ensure that future contracts issued through
interagency agreements are within the scope of those agreements.

   EPA Response: Nonconcur
   Region 8 adheres to the Federal Acquisition Regulations (FAR) with regard to Interagency
   Agreements (IAs). As such, Region 8 has ensured that work assignments issued through IAs
   are within the scope of those agreements and will continue to do so. The EPA disagrees with
   the OIG finding that the contract work was outside of the scope of the IA.

   Alternative Remedy: No corrective action needed. Region 8 adheres to the FAR with regard
   to IAs.


13-P-0221                                                                                         41
      OIG Response 38: The Agency disagreed with Recommendation 4. In response to the
      OIG finding, Region 8 officials stated they adhered to the Federal Acquisition
      Regulations (FAR) as authority for using the Volpe Center interagency agreement to
      award the contract to the University of Cincinnati. The Agency did not adhere to FAR
      Subpart 17.5, “Interagency Agreements Under the Economy Act.” The Economy Act
      applies when specific statutory authority does not exist. The report indicates that the
      Agency use of the Libby Clean-up IAG to award a contract to the University of
      Cincinnati exceeded the scope of work under the agreement between Region 8 and the
      Volpe Center. The Agency also does not cite compliance with any particular FAR
      requirement that would override the Compendium and the interagency agreement terms.
      Therefore, this recommendation is unresolved with dispute actions pending.

5) Assistant Administrator for Research and Development develop a priority list for
pending and ongoing research.

   EPA Response: Nonconcur
   EPA strongly disagrees with any OIG findings or implications that other toxicity assessments
   being conducted by ORD were not of equally high public health consequence. The OIG did
   not evaluate the public health impacts of any of the other Toxicological Assessments being
   conducted by EPA. They did not, for example, evaluate the public health significance of
   completing assessments of the toxicity of formaldehyde, trichloroethylene (TCE), or
   perchloroethylene (PERC). TCE and PERC are constituents of concern at over 700 sites on
   the National Priorities List, and formaldehyde is a chemical with very widespread exposure
   in both indoor and outdoor air. All of these assessments were nominated and selected per the
   IRIS process described above.

   Alternative Remedy: No corrective action needed. EPA believes the existing prioritization
   approach used by ORD/ National Center for Environmental Assessment (NCEA) is
   appropriate and adequate. In November 2012, EPA reconsidered this response. EPA provided
   additional information for the selection of formaldehyde work over Libby work and
   requested a change to the recommendation to require the Assistant Administrator for ORD to
   review priority ranking among the ongoing IRIS assessments and that he be informed of any
   recommended changes in those relative priorities.




13-P-0221                                                                                       42
          OIG Response 39: The Agency disagreed with Recommendation 5. We disagree
          that the report states that other assessments were not of an equally high public health
          consequence. Rather, EPA could not tell the OIG what the existing prioritization
          approach was and how EPA made the determination to complete other work instead
          of the Libby cancer study. Specifically, EPA made the management decision to
          complete formaldehyde work, which resulted in some delay in completing the Libby
          cancer study. We requested that EPA provide the rationale for this decision given
          the noted health implications of the Libby cancer study. During the review, EPA
          responded that the NCEA Director made the decision to complete the formaldehyde
          assessment even if that meant some delays in the Libby cancer assessment. In these
          comments, EPA states that the OIG did not evaluate the public health impacts of any
          of the other Toxicological Assessments being conducted by EPA. However, this
          concerns the EPA rationale for a decision that it had already made. Given that EPA
          could not provide a health based rationale, we recommended that EPA develop a
          process to determine priority in completing assessments. Therefore,
          Recommendation 5 is unresolved with dispute actions pending.


Deputy Chief of Staff Comments
That OIG recommended that the Deputy Administrator direct the Science Advisory Board (SAB)
to determine whether:


       a.	 EPA has followed guidance sufficient to support the findings in the toxicity
           assessment; and
       b.	 Limitations exist in applying the cancer and noncancer values to the determination of
           safe levels in Libby.

1. Review Comment: We do not concur with the recommendation. The recommendation is not
warranted because the SAB is in the process of completing a peer review of ORD’s Draft
Toxicological Review of Libby Amphibole Asbestos. The SAB review report will address
strengths and limitations of ORD’s draft assessment for the derivation on noncancer and cancer
toxicity values.

     OIG Response 40: Although EPA does not agree with our Recommendations (3a and
     3b), the action specified through information to be addressed in the SAB report meets the
     intent of the recommendation. These Recommendations requires the SAB to comment on
     whether EPA followed sufficient guidance to support the findings in the Libby toxicity
     assessment; and, whether limitations exist in applying the cancer and non-cancer values
     to the determination of safe levels in Libby. Therefore, Recommendation 3a and 3b
     remain unresolved pending dispute resolution actions.


2. Review Comment: The OIG draft report includes certain statements made by the SAB Staff
Office Director concerning some preliminary SAB review comments on the Draft Toxicological
Review of Libby Amphibole Asbestos. The SAB review is still ongoing and, therefore, it is not

13-P-0221                                                                                       43
appropriate to include SAB review comments in the OIG report. The SAB review report is
expected to be completed in October 2012. We strongly recommend deletion of the 4th, 5th, and
6th bullets on p.13 of the draft report.

  OIG Response 41: The statements made by the former SAB Director are in response to
  questions posed by the OIG and are not taken from the SAB draft report. However, the SAB's
  final report is public. The SAB's report cited several areas that need more consideration, and
  provided recommendations to further enhance the clarity and strengthen the scientific basis
  for the conclusions presented in the draft toxicity assessment. Therefore, we find no
  justification to delete the text.


3. Review Comment: The first bullet on page 14 referring to the former SAB Director’s
statement about availability of information and data for SAB review is not specific to the Libby
Asbestos toxicity assessment and should be deleted. This is a general statement about SAB
experience in reviewing many EPA technical documents over the years. With regard to the
ongoing SAB review of Libby Asbestos toxicity assessment, the SAB panel has requested
additional data to verify the results of EPA analysis, and the Agency has been very responsive to
the SAB request.

  OIG Response 42: The OIG does not ignore systemic weakness observed (EPA does not
  provide all data to the SAB) when reviewing a specific topic such as the SAB review of the
  toxicity assessment. The issue affects all assessments the SAB performs for EPA as
  evidenced by the Deputy Chief of Staff who states, “This is a general statement about SAB
  experience in reviewing many EPA technical documents over the years.” The former SAB
  Director stated that EPA did not provide all the data available on the toxicity assessment
  without a specific request from them.

4. Review Comment: The OIG report states on page 14 (third paragraph) the “EPA and the
SAB should resolve issues relating to developing specific guidance on study selection and dose
response selection to improve the toxicity assessment.” As an external advisory body, the SAB
provides review comments and makes recommendations through written reports. The SAB
reports are advisory in nature, and the SAB has no(t) the authority to direct the agency or
negotiate with the agency regarding the SAB recommendations. Should SAB make specific
recommendations on this issue in its report, it is incumbent upon the agency to decide how to
implement the recommendations.

   OIG Response 43: The report makes no such recommendation, as the OIG is aware that
   the SAB has no authority to direct EPA actions. However, the EPA has turned to the SAB
   for scientific review of its risk assessments. It does not appear constructive for EPA to
   engage expert SAB panels but deny the panel information they believe is necessary to do
   their jobs effectively. This is an insufficient response to address such a serious issue.
   Resolution of the issues could reduce the limitations associated with SAB reviews of
   future EPA risk assessments. Additionally, resolution of these issues could improve public
   confidence in EPA risk assessments.


13-P-0221                                                                                        44
                                                                               Appendix E

                                    Distribution
Office of the Administrator
Deputy Administrator
Assistant Administrator, Office of Solid Waste and Emergency Response
Assistant Administrator, Office of Research and Development
Regional Administrator, Region 8
Agency Follow-Up Official (CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Principal Deputy Assistant Administrator, Office of Solid Waste and Emergency Response
Deputy Assistant Administrator, Office of Research and Development
Deputy Regional Administrator, Region 8
Director, Washington Division, National Center for Environmental Assessment,
    Office of Research and Development
Director, Office of Superfund Remediation and Technology Innovation, Office of Solid Waste
    and Emergency Response
Public Affairs Officer, Region 8
Audit Follow-Up Coordinator, Office of the Administrator
Audit Follow-Up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-Up Coordinator, Office of Research and Development
Audit Follow-Up Coordinator, Region 8




13-P-0221                                                                                    45
